<html>
<title> - [H.A.S.C. No. 112-37] BUDGET REQUESTS FOR U.S. TRANSPORTATION COMMAND AND U.S. AFRICA COMMAND</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 112-37] 

                                HEARING 

                                   ON 

                   NATIONAL DEFENSE AUTHORIZATION ACT 

                          FOR FISCAL YEAR 2012 

                                  AND 

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS 

                               BEFORE THE 

                      COMMITTEE ON ARMED SERVICES 

                        HOUSE OF REPRESENTATIVES 

                      ONE HUNDRED TWELFTH CONGRESS 

                             FIRST SESSION 

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                          BUDGET REQUESTS FOR

                      U.S. TRANSPORTATION COMMAND

                        AND U.S. AFRICA COMMAND

                               __________

                              HEARING HELD

                             APRIL 5, 2011

                                     
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

65-808 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 















                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            GABRIELLE GIFFORDS, Arizona
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROB WITTMAN, Virginia                CHELLIE PINGREE, Maine
DUNCAN HUNTER, California            LARRY KISSELL, North Carolina
JOHN C. FLEMING, M.D., Louisiana     MARTIN HEINRICH, New Mexico
MIKE COFFMAN, Colorado               BILL OWENS, New York
TOM ROONEY, Florida                  JOHN R. GARAMENDI, California
TODD RUSSELL PLATTS, Pennsylvania    MARK S. CRITZ, Pennsylvania
SCOTT RIGELL, Virginia               TIM RYAN, Ohio
CHRIS GIBSON, New York               C.A. DUTCH RUPPERSBERGER, Maryland
VICKY HARTZLER, Missouri             HANK JOHNSON, Georgia
JOE HECK, Nevada                     KATHY CASTOR, Florida
BOBBY SCHILLING, Illinois            BETTY SUTTON, Ohio
JON RUNYAN, New Jersey               COLLEEN HANABUSA, Hawaii
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                 Ben Runkle, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                    Lauren Hauhn, Research Assistant
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Tuesday, April 5, 2011, Fiscal Year 2012 National Defense 
  Authorization Budget Requests for U.S. Transportation Command 
  and U.S. Africa Command........................................     1

Appendix:

Tuesday, April 5, 2011...........................................    35
                              ----------                              

                         TUESDAY, APRIL 5, 2011
  FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUESTS FOR 
          U.S. TRANSPORTATION COMMAND AND U.S. AFRICA COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Ham, GEN Carter F., USA, Commander, U.S. Africa Command..........     6
McNabb, Gen. Duncan J., USAF, Commander, U.S. Transportation 
  Command........................................................     4

                                APPENDIX

Prepared Statements:

    Ham, GEN Carter F............................................    67
    McKeon, Hon. Howard P. ``Buck''..............................    39
    McNabb, Gen. Duncan J........................................    43
    Smith, Hon. Adam.............................................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Hanabusa.................................................   103

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................   108
    Ms. Giffords.................................................   108
    Mr. Turner...................................................   107
  FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUESTS FOR 
          U.S. TRANSPORTATION COMMAND AND U.S. AFRICA COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Tuesday, April 5, 2011.
    The committee met, pursuant to call, at 2:23 p.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    I apologize for our tardiness. We had a vote and then a 
suspicious package, and I didn't think they were ever going to 
let us back.
    The House Armed Services Committee meets today to receive 
testimony from the commanders of the United States 
Transportation Command and the United States Africa Command on 
the posture of their respective commands. Although these are 
two combatant areas that sometimes fly beneath the radar, this 
hearing cannot be more relevant than it is today.
    In AFRICOM's [the United States Africa Command's] area of 
responsibility, U.S. forces have been conducting active 
military operations against forces loyal to Libyan dictator 
Muammar Qadhafi in an effort to prevent a massacre of the 
civilian population of Libya. Although this humanitarian 
intervention is motivated by a noble impulse, there is a strong 
possibility of a strategic stalemate emerging in Libya. I fear 
we may find ourselves committed to an open-ended obligation 
through our participation in NATO [North Atlantic Treaty 
Organisation] operations, and that poses real opportunity 
costs, given the volatility of other unstable, more 
strategically important countries in the region.
    Beyond Libya, this weekend, as many as 1,000 civilians were 
massacred in the Ivory Coast, as that nation's political 
standoff escalated violently. This brutality could be an 
ominous foreshadowing of future events in the Sudan, as the 
southern portion of that war-torn country becomes an 
independent nation in July. Further east, Somalia continues to 
be a source of instability, hosting both Al Qaeda and 
affiliated al-Shabaab terrorist organization and the various 
piracy networks that have intensified attacks in the Gulf of 
Aden and beyond over the past several years, recently killing 
four American citizens aboard a private yacht.
    Just as it was virtually impossible to foresee the United 
States becoming militarily involved in Libya, at least at last 
year's posture hearings, this Congress may be called upon to 
fund a number of possible contingency operations or 
humanitarian missions in AFRICOM's AOR [area of 
responsibility]. I think when we made New Year's resolutions 
this year, we did not foresee Egypt, Libya, all of the other 
things that are happening.
    Wherever U.S. forces may operate over the next year, 
TRANSCOM [the United States Transportation Command] will be 
charged with getting them there, sustaining them throughout 
their operations, and getting them home to their families. As 
General Omar Bradley famously said, amateurs talk strategy and 
professionals talk logistics. The events of the past 18 months 
are an instructive example as to the relevance of that quote 
today. Not only did TRANSCOM have to respond to the surge of 
forces in Afghanistan while they simultaneously orchestrated 
the drawdown of forces in Iraq, but they also had to respond to 
the devastating earthquake in Haiti.
    Things have not gotten any easier for the men and women of 
TRANSCOM, as they are now supporting combat operations in 
Libya, in addition to operations in Iraq and Afghanistan, and 
are working desperately to assist the people of Japan following 
the horrific earthquakes of the past month.
    What they do is not easy, and it oftentimes goes unnoticed, 
but the capabilities of TRANSCOM are truly unique among 
nations.
    We are fortunate to be joined here today by two officers 
with long and distinguished records of service to their Nation: 
General Duncan McNabb, Commander of U.S. Transportation 
Command, and General Carter Ham, Commander of U.S. Africa 
Command.
    Gentlemen, thank you for appearing before us here today, 
and thank you for your lifetime of service to our Nation. And 
please convey our thanks to those who serve with you in your 
combat areas. We look forward to hearing your testimony today.
    Ranking Member Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 39.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    Welcome, General McNabb, General Ham. Appreciate you being 
here to testify this afternoon. Look forward to your comments 
and your answers to our questions.
    Two very important commands within the military. 
Transportation Command, first, does an amazing job of what the 
chairman referred to as ``logistics.'' You know, you can 
imagine all the capabilities we have and where we would like 
them, but General McNabb is the one who has to make sure that 
those two things match up. And it is not an easy job, when you 
consider our interests throughout the world and where we have 
had to move our equipment in recent years. You do an 
outstanding job, as do the men and women who serve in the 
Transportation Command. We appreciate that. We have the C-17s 
[Boeing Globemaster III military transport aircraft] out of 
Joint Base Lewis-McChord and McChord Air Force Base who are a 
big part of that, so we are very proud of what they do, as 
well.
    Going forward, I think, in this hearing, a number of issues 
we are going to be interested in, but, in particular, as we 
figure out how to downsize in Iraq, move equipment out of 
there, how does that work in terms of getting it back to the 
States or getting it back to where we want it based? How is 
that process progressing? What contingencies do you have in 
place if, for some reason, sometime in the next 7 to 8 months, 
it turns out that we are going to be leaving more equipment 
there than we expected? If the Iraqis make a request that we 
are able to grant for a continued U.S. presence of some, you 
know, very limited scope, I would anticipate, but, still, that 
will complicate the transportation of that equipment.
    And then, second, of course, the ongoing challenge of 
providing for the warfighter in Afghanistan. And there are many 
logistical challenges. We bring a lot of our equipment in 
through Pakistan, not always a very stable place. Other 
countries to the north of Afghanistan also have their 
challenges, as we have heard. So I would be interested in your 
feelings about how we are doing on that and what the major 
challenges are going forward and how we can better make sure 
that we get the equipment to Afghanistan that we need.
    In AFRICOM, as the chairman mentioned, you have a fair 
number of challenges in that region. I think the best way to 
summarize them is ``instability.'' Certainly, there is a lot of 
political unrest in a number of nations across the top of 
Africa, to varying degrees, from Tunisia and Egypt and Libya 
and Morocco. And then, also, further down in the Ivory Coast, 
there are major challenges right now. The Democratic Republic 
of the Congo has an ongoing challenge, particularly in the 
eastern Congo, with maintaining stability.
    And that instability can have a very real impact on our 
national security interests. Al Qaeda is present both as, you 
know, AQAP, Al Qaeda in the Arabian Peninsula, over close to 
Somalia, and then Al Qaeda in the land of the Islamic Maghreb, 
AQIM, which is throughout the sort of Mali-Mauritania area. And 
they feed on instability--vast, ungoverned spaces, where they 
can operate without people being able to control them.
    So AFRICOM has a strong interest not just, you know, in 
Libya, where we are very aware of what is going on, but 
throughout the continent in trying to figure out how we combat 
political unrest, combat poverty, which drives instability, to 
make sure that these unstable, ungoverned areas don't become a 
threat to us and that we can help make sure that the continent 
is a more peaceful and prosperous place for those who reside 
there.
    So I appreciate the opportunity to have this hearing today. 
I look forward to your testimony, gentlemen.
    With that, I will yield back to the chairman.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 41.]
    The Chairman. Thank you.
    General McNabb.
    Your full testimonies, without objection, will be inserted 
in the record, so you may tell us whatever you feel most 
appropriate.
    General.

   STATEMENT OF GEN. DUNCAN J. MCNABB, USAF, COMMANDER, U.S. 
                     TRANSPORTATION COMMAND

    General McNabb. Chairman McKeon, Congressman Smith, and 
distinguished members of this committee, it is my distinct 
privilege to be here today with you, representing more than 
145,000 of the world's finest logistics professionals.
    Throughout 2010 and continuing today, the U.S. 
Transportation Command team of Active Duty, Guard, Reserves, 
civilians, merchant mariners, and commercial partners 
accomplish incredible feats in the face of historic challenges.
    We have a saying at U.S. Transportation Command, ``We view 
our success through the eyes of the warfighter.'' We have 
always been about support to the six regional combatant 
commands and their joint task force commanders. Working with 
the Defense Logistics Agency, the Joint Staff, the Services, 
and the combatant command staffs, our log-nation and trans-
nation teams have provided unparalleled logistics superiority 
to the regional combatant commanders.
    From the Services in the Joint Forces Command getting the 
forces ready to go, to the TRANSCOM team delivering the force, 
to the theater commanders receiving the force, this is the best 
overall performance I have seen in almost 37 years of service.
    Sitting next to me is one of our finest warfighters and my 
good friend, General Carter Ham. I was proud to support him as 
he commanded military operations over the skies of Libya in 
Operation Odyssey Dawn. And I look forward to continuing to 
support him as he takes AFRICOM to new and even higher levels. 
It is he and the other commandant commanders that I am always 
supporting, and we view our success through their eyes.
    I feel blessed to be the custodian of one of the Nation's 
greatest asymmetric advantages: our strategic ability to move. 
Since taking command of U.S. Transportation Command in the fall 
of 2008, I have been amazed to see some of the unique 
capabilities inherent in this command.
    First and foremost is the power of the total-force team. 
Nobody matches up our Active Duty force with our Guard and 
Reserve partners like the U.S. Transportation Command. When we 
called for volunteers to help relieve some of the suffering in 
Haiti last January, the men and women of the Guard and Reserves 
stepped up in huge fashion. This included a Contingency 
Response Group from the Kentucky Guard that was just coming up 
to speed. During the surge of forces into Afghanistan, we 
relied heavily on activated C-5 [Lockheed Galaxy military 
transport aircraft] and C-17 crews, maintainers, and aerial 
porters, and they were crucial to meeting President Obama's 
deadline to complete the plus-up by 31 August of last year. 
Most recently, we saw their patriotism in action in responding 
rapidly to the air refueling requirements in support of the 
Libyan operations.
    I am also in awe of the power of the U.S.-flag fleet in the 
air, on the seas, and over land. The U.S.-flag maritime fleet 
and their outstanding merchant mariners stepped up during our 
historic surge last year into Afghanistan and out of Iraq, and 
we didn't have to activate one ship for either operation. And 
they delivered. They continue to be key to supplying our forces 
in Afghanistan, whether coming up through Pakistan or over the 
Northern Distribution Network. In the air, our commercial 
partners have continued to meet the demands of the surge in 
Afghanistan and, most recently, responded brilliantly to 
bringing Americans home from Japan following the recent 
earthquake, tsunami, and nuclear incident.
    We know the combatant commanders around the world depend on 
us to deliver the forces and their sustainment day-in and day-
out, from resupply of the South Pole, to air-dropping food, 
water, and ammo to a forward operating base in Afghanistan, to 
delivering fuel to our fighters and bombers enforcing the 
Libyan no-fly zone, U.S. TRANSCOM delivers. If we do this 
right, our warfighting commanders do not worry about their 
logistics lifeline.
    This is what the Secretary of Defense intended when he made 
U.S. TRANSCOM the distribution process owner, or DPO, in 2003. 
He gave the DPO influence over the entire supply chain, from 
factory to foxhole. And we constantly look for more effective 
solutions for the warfighter while also being good stewards of 
the taxpayers' dollar. Since its inception, the DPO has 
realized over $5.3 billion in savings, and we are still 
counting. Last year alone, that savings was $1.7 billion.
    A big part of the savings is taking advantage of lower-cost 
surface transportation whenever possible. When we match surface 
to air and commercial to military modes of transportation, we 
are leveraging our enterprise to maximum advantage for both the 
warfighter and the taxpayer. We recently saved over $110 
million a month moving lifesaving Mine Resistant All-Terrain 
vehicles to our forces in Afghanistan using a combination of 
commercial surface and military air. We continue to look for 
every opportunity to use multimodal operations throughout our 
global enterprise.
    My final callout is to the power of the interagency and the 
joint team. President Obama, in ordering the plus-up of forces 
in Afghanistan and drawdown in Iraq, set a very tight timeline 
for our execution. We knew we would need some help increasing 
capacity on our existing supply lines and help in establishing 
new supply routes.
    We took our recommendations to the interagency, and the 
whole of government came through with excellent results. The 
National Security Council, ambassadors around the world, the 
State Department, the Office of the Secretary of Defense, the 
Maritime Administration, the combatant commands, and the log-
nation and trans-nation teams came together to make logistics 
magic.
    This was at a time when we were asked to expand quickly and 
redirect flow due at an earthquake in the Caribbean that 
devastated Haiti, which the chairman alluded to; a volcanic 
eruption that shut down European airspace for 3 weeks; a coup 
in the country where we have our main passenger trans-load 
operation; the Deep Horizon oil spill in the gulf; and the 
worst floods in Pakistan history during the last month of the 
plus-up. And we still closed everything by 31 August that the 
President had asked us to do.
    And our operations continue today at record-breaking pace. 
We continue to support our forces in Afghanistan and the 
drawdown in Iraq. We pivoted the transportation enterprise 
rapidly to support General Ham in the implementation of the no-
fly zone over Libya. And we moved out urgently to help with 
disaster relief in Japan and provide immediate responses to the 
nuclear incident with special equipment and nuclear specialists 
from the United States.
    I could not be more proud of the men and women of the 
United States Transportation Command. I have flown with our 
aircrews and loaded and moved containers with our stevedores. I 
have walked through the pallet holding areas with our aerial 
porters in Afghanistan and explored the cargo holds of our 
Ready Reserve Fleet with our merchant mariners. Daily, I am 
amazed and humbled by what our people accomplish.
    Chairman McKeon, Congressman Smith, and all members of this 
committee, thank you for your continued superb support of U.S. 
TRANSCOM and our men and women in uniform. It is my distinct 
honor and privilege to appear before you today to represent the 
men and women who are the U.S. Transportation Command and to 
tell you their story.
    Again, thank you for taking my written statement for the 
record, and I look forward to your questions.
    [The prepared statement of General McNabb can be found in 
the Appendix on page 43.]
    The Chairman. Thank you very much.
    General Ham.

  STATEMENT OF GEN CARTER F. HAM, USA, COMMANDER, U.S. AFRICA 
                            COMMAND

    General Ham. Thank you, Mr. Chairman, Congressman Smith, 
and members of the committee. And thanks for the opportunity to 
discuss with you today the accomplishments of the men and women 
of United States Africa Command.
    I would like to introduce to the committee Command Chief 
Master Sergeant Jack Johnson, the command's senior enlisted 
leader. He and I have only just begun our service together at 
Africa Command, but I see already that he is exactly the right 
person to lead several important initiatives and to ensure our 
service members and their families are well-trained and well-
supported.
    And I am indeed honored to appear alongside General McNabb, 
a highly distinguished airman and joint force leader.
    This is a historic time for United States Africa Command. 
We have completed a complex, short-notice operational mission 
in Libya and have now transferred control of that mission to 
NATO. The situation in Libya in the conduct of Operation 
Odyssey Dawn highlights some important matters about Africa.
    First, this event illustrates the dynamics of the African 
political-military environment, one that has seen the growing 
threat of transnational extremists in Somalia, election crises, 
coups, the Southern Sudanese referendum, the scourge of the 
Lord's Resistance Army, to name just a few of the challenges to 
security on the continent.
    In order for Africa Command to reduce threats to our 
citizens and interests both abroad and at home, we need to 
contribute to operations, programs, and activities that help 
African states provide for their own security in a manner that 
is consistent with the rule of law and international norms. And 
we must continue our efforts to enhance regional stability 
through partnership, not only with African states, but also 
sustained, reliable support to African regional organizations.
    Africa Command's programs are designed to help prevent 
conflict while simultaneously ensuring that the command is 
prepared to respond decisively to any crisis when the President 
so directs, as demonstrated in our conduct of Operation Odyssey 
Dawn.
    Secondly, building the coalition to address the situation 
in Libya was greatly facilitated through the benefits of 
longstanding relationships and interoperability, this time 
within NATO. This is the kind of regional approach to security 
that U.S. Africa Command seeks to foster on the continent.
    U.S. Africa Command's priority efforts remain building the 
security capacity of our African partners. We incorporate 
regional cooperation in pursuit of interoperability in all our 
programs, activities, and exercises so that our African 
partners are postured to readily form coalitions to address 
African security challenges as they arise.
    Everything U.S. Africa Command has accomplished is the 
result of the professionalism and dedication of the uniformed 
and civilian women and men of the command and our many 
teammates from across the U.S. Government. Their dedicated 
efforts are a testament to the American spirit and 
determination and reflects our commitment to contributing to 
the wellbeing and security of the people of Africa.
    Our guiding principles are, first, that a safe, secure, and 
stable Africa is clearly in the best interest of the United 
States and, secondly, that we seek to help Africans find 
solutions to African challenges.
    I am cognizant that the command is only able to accomplish 
its missions with the enduring support of this committee. And I 
thank you for that and invite you to come visit us at our 
headquarters or, better yet, come see us at work in Africa.
    Mr. Chairman, I would welcome your questions.
    [The prepared statement of General Ham can be found in the 
Appendix on page 67.]
    The Chairman. Thank you very much.
    General McNabb, the ongoing combat operations in 
Afghanistan and Iraq, the response to the earthquake in Japan, 
and the President's decision to engage combat forces in Libya 
are undoubtedly straining the mobility force.
    Have you reached or are you approaching any redlines in 
mobility capabilities? What areas of operations concern you the 
most? And are there any additional resources or assets that 
could alleviate the stress on the forces and reduce your 
operational risk?
    General McNabb. Sir, right now, I think one of the things 
that hits me is our ability to pivot the transportation 
enterprise and expand it and contract it using our U.S.-flag 
carriers and our total force. At this point, we have gotten 
tremendous support from our Guard and Reserve. A lot of them 
have volunteered to help wherever they can.
    What I would do next, if we ended up--if that is not enough 
to handle what we are being asked to do worldwide, is then I 
would have to mobilize some folks. And, at this time, we do not 
think we have to do that, at the present level.
    What we have been able to do is, as we have looked at kind 
of the urgent requirements that we had for Libya and the urgent 
requirements we had for Japan, we basically stayed in very 
good, close contact with CENTCOM [United States Central 
Command], and we looked for ways or things that we could slow 
down that they could take a little risk in, primarily 
sustainment.
    A decision was made by General Petraeus and General Mattis 
to increase the sustainment stocks in Afghanistan, and that 
gave us a little bit of room to be able to say, ``Can we slow 
this down a little bit until we take care of these emergencies? 
And then we will get right back to you.'' That is the same way 
we handled Haiti.
    And so, the ability to mix and match is one of the things 
that I think we bring to the table.
    At this time, I will say that the Civil Reserve Air Fleet 
has stepped up to anything that we have asked. I would say 
that, this last couple of weeks, I didn't quite understand how 
much spring break affects excess capacity, but I will say that 
that one hit us pretty hard. Next to Christmas and 
Thanksgiving, spring break is the busiest time for our carriers 
who are out there. So as we brought--on the order of departure, 
the voluntary departure coming out of Japan, in support of 
Admiral Willard, getting them back to the States and getting 
seats back to their homes was something that was worked very 
closely with NORTHCOM [United States Northern Command] and with 
TRANSCOM as we worked through that.
    Right now, I think that, as the Libyan operation unfolds, 
we are watching that carefully. Obviously, if that expands in 
any way, that would be one where we would be looking to say, do 
we have enough? Right now, we don't see that.
    Obviously, there are some other places where there is 
turmoil. I will bring the Ivory Coast, you can bring Yemen. All 
of those operations, we work with CENTCOM or with AFRICOM to 
sit down and say, ``Okay, how are we going to do this 
together,'' doing lot of what-ifs.
    At this point, I am looking forward to Afghanistan and 
Iraq, making sure that we can meet the timelines coming out of 
Iraq. As Congressman Smith asked me about how do we do that, I 
would say that, coming down from 130,000 to 50,000, that that 
work with General Austin and his people in Iraq, the Army 
Materiel Command under General Dunwoody, really that team has 
worked superbly, bringing out the extra equipment through 
Kuwait and through Jordan, getting it washed up, and then 
putting it on commercial vessels. That is what I was 
mentioning, that we didn't have to activate any ships to do 
that.
    I am confident that that system is working well. And, in 
fact, making sure which stuff we will leave there, which stuff 
that we will bring home, which stuff will we send to 
Afghanistan was what we went through last year. But I will tell 
you, the team, I think, did a superb job. And my portion was 
just moving it, which was not the hardest part of all of that.
    When I think about Afghanistan, I would say that we have 
found the power of intermodal operations that I had mentioned, 
being able to take it by surface to ports much closer to 
Afghanistan, and then just jumping the last part using airlift. 
We are looking for that same capability to be able to bring 
stuff out of Afghanistan. In other words, same way: bring it 
out by air to a port nearby, and then bring it by surface mode 
from there.
    We would like to get dual--be able to go both directions on 
the Northern Distribution Network. Right now, we can only take 
stuff in. Some countries have not given us permission to bring 
stuff out of Afghanistan through the Northern Distribution 
Network. So the interagency and the whole team is working that.
    I continue to look to say, I would like to make sure that I 
have lots of options--the Northern Distribution Network, the 
Pakistan LOC [line of communication]. Working with General 
Kayani and the Pak [Pakistan] military, we are trying to make 
sure we do everything we can to make the Pak LOC as smooth as 
possible.
    But our ultimate ace in the hole is air. And we are trying 
to make sure we have taken full advantage of that, working very 
closely with General Petraeus and his team there.
    The Chairman. Thank you.
    General McNabb. So, sir, I think that kind of puts it in a 
nutshell, but I think we are getting there.
    The Chairman. Thank you.
    General Ham, despite the numerous briefings we have 
received from the administration regarding our military 
operations in Libya, I think many areas of uncertainty still 
remain. One question I have is where AFRICOM fits into the 
command and control structure of NATO enforcement of the no-fly 
zone and attacks on regime ground targets.
    General, does AFRICOM have a clear role in the chain of 
command or targeting boards of Operation Odyssey Dawn, or are 
you liaising with NATO's Joint Task Force Unified Protector, at 
this point?
    And what has the reaction of Libya's African neighbors been 
to our intervention there? Will this operation affect our 
partnership efforts in the region--in particular, Operation 
Enduring Freedom Trans Sahara and our efforts against Al Qaeda 
in the Maghreb?
    General Ham. Chairman, first of all, on the command and 
control side, at present, with the transition of the operation 
from U.S. AFRICOM to NATO, NATO now has the full operational 
control of the forces that are actually conducting missions 
over Libya. So U.S. AFRICOM is presently in a supporting role 
to Admiral Stavridis, Admiral Locklear, General Bouchard in 
their efforts. So I don't, at present, have an operational 
responsibility.
    There is always the potential for some U.S. unilateral 
military missions. One could think of, for example, a personnel 
recovery of a downed pilot or something like that. And if that 
were to occur, then that would fall to U.S. Africa Command to 
execute those responsibilities.
    Sir, with regard to the regional reaction, it is--frankly, 
it is mixed, as we see that particularly play out in the 
African Union. Many members, many states in Africa have voiced 
their support for the United Nations Security Council 
Resolution 1973, the imposition and the execution of those 
responsibilities. But, frankly, there are other states who did 
not agree with that U.N. [United Nations] Security Council 
resolution.
    I think, frankly, as we proceed, I am going to have the 
responsibility, as I engage with our African partners, of just 
having a very frank discussion about what U.S. Africa Command's 
role was, why we did what we did, and just be as truthful and 
forthright as I can, just to try to maintain the great 
relationships that we have with most African states as we move 
forward.
    But your point is valid. There is an impact and there will 
be an impact within the region.
    The Chairman. Thank you very much.
    Ranking Member Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    My first question on the Transportation Command, if you 
could play out a little bit, General McNabb, how things are 
going in terms of the logistical challenges in Afghanistan that 
I asked about earlier, working through Pakistan and some of the 
other areas. Are we able to get what we need in? I know there 
are major movements now of equipment for the Afghan National 
Security Force. How is that working, and what are the 
challenges going forward?
    General McNabb. Sir, we presently take in about 35 percent, 
and everything that is high-value we take in by air. Sometimes 
that is just that short hop that I was mentioning before from a 
port that is close in, sometimes that is all the way from the 
States, depending on the nature of the stuff going in.
    It is about--on the surface side, it ends up being about 45 
percent coming through the Pakistan LOC and about 55 percent of 
the surface move coming through the Northern Distribution 
Network. So we have actually adjusted more of the flow to the 
north, but we don't have--we are not able to bring military 
equipment through the NDN [Northern Distribution Network]; we 
can only bring that through the Pakistan LOC, which gets to 
your question about FMS [foreign military sales] for the ANA 
[Afghan National Army].
    We have been working with the Pakistan military to make 
sure that we--I have stressed to them how important it is to 
maintain the velocity going through the Pakistan LOC. I 
continue to work with them to say--we can identify if there is 
any pilferage or attacks and show them where that is taking 
place and work with them to respond quickly. We still are at 
less than about 1 percent pilfered rate on the Pak LOC. And so 
I would say that--of course, if it is your stuff, the 1 percent 
is way too much.
    Mr. Smith. Right.
    General McNabb. So we continue to work that hard with Task 
Force Guardian, which General Petraeus and General Mattis put 
together.
    General Thurman made sure--he is the Army Forces Command--
he made sure the discipline of what goes on the ground is 
maintained. From my standpoint, I say, if it is really 
important to you, we put that on the air.
    Mr. Smith. And has the security situation in terms of the 
Pakistan route gotten better or worse? I know there were 
concerns about attacks against our supply line coming through 
Pakistan. What is the update on that?
    General McNabb. Sir, it has gone--it has kind of gone--
there are periods where it goes a little higher. I will say, in 
December of '08 was the time when all of us very much worried 
that we did not have the Northern Distribution Network at that 
time. It was 11 percent, was the pilferage and attack rate on 
it.
    Since then, it has come down below 1 percent, pretty much, 
for calendar years. But to give you a sense, in July of last 
year, when the floods were all happening and things started to 
get stacked up, that is when--you slow down the velocity, that 
is when you become more vulnerable. We went up to about 2 
percent during that month. But, overall, for the last year, it 
was less than 1 percent.
    Mr. Smith. Okay.
    General McNabb. But, again, we keep working at that and 
making sure that we are looking for every possible way that we 
can smooth that. A lot of it is just maintaining the velocity 
on there so it doesn't slow down and become vulnerable.
    Mr. Smith. Right, and create a bigger target. Thank you.
    General Ham, just a quick question about Africa. I 
mentioned that stability is a main challenge there, and in 
making sure that we do what we can to help create a more stable 
atmosphere, there is a strong interagency approach that is 
necessary--State Department, USAID [U.S. Agency for 
International Development], in particular, and elsewhere. I 
have done a trip across Africa to a variety of different 
countries a couple years ago, and I know that that is critical 
to being able to be successful, is to leverage your assets in 
cooperation with the State Department.
    Can you talk to us a little bit about how that interagency 
process works country to country in Africa and how you see that 
as part of your mission there?
    General McNabb. Yes, sir, absolutely. With the design of 
United States Africa Command, there was a recognition, I think, 
early on that the problem set that you just identified was key, 
that it is about instability, and it does require a whole-of-
government approach to advance U.S. interests on the continent. 
And, with that in mind, the command headquarters was designed 
as--or, with a considerable amount of interagency support.
    So we look at our headquarters in Stuttgart, which is, not 
surprisingly, overwhelmingly Department of Defense, but we have 
12 other Government agencies who are represented at some pretty 
senior levels, to include a deputy to the commander, who is a 
very experienced and senior foreign service officer, former 
ambassador. We have senior representatives from USAID, from 
Treasury, from Commerce and many other organizations to help us 
look at the challenges, the security challenges, in Africa 
through more than just a military lens.
    And that helps us, first of all, better define the problem 
so that we can then, in concert with our interagency partners, 
bring to bear, you know, ideally, the whole of government, the 
various assets that different branches bring, to help African 
states build the secure environment that they need to build. 
Our aspect of that is, again, very largely weighted toward the 
military, but the other aspects of government are key.
    The second point, Congressman, that I would say is we work 
very, very closely with the chiefs of mission in the countries. 
And, of course, they are the senior Americans in each of those 
countries. We make sure that all of our efforts are nested with 
the Ambassador and with the country team, which are inherently 
interagency. And we think that that works to our best effect.
    Mr. Smith. Okay. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. Thank you both very much for your testimony, 
your long service, and your stellar performance.
    I have a lot of questions about our Libyan involvement, 
which I believe is both unconstitutional and illegal. But these 
are policy questions, and I know yours is not to reason why, 
yours is but to do and die. So I will avoid the temptation to 
ask you questions which you cannot answer by yielding my time 
to our most junior member here at gavel fall, which was Mr. 
West.
    Mr. West. Well, thank you, Mr. Bartlett.
    And, also, thank you, Mr. Chairman and Mr. Ranking Member.
    And, Generals, it is good to see you.
    And, General Ham, always great to see you.
    First of all, General McNabb, strategic maneuverability has 
always been the great thing about our force and our country. 
But what I would like to do is look out ahead maybe about 5 
years. And when you look at the fact that we are moving more so 
from a forward-deployed type of military force more so to a 
power-projection or a forceable-entry type of force, what do 
you see are the challenges, you know, 5 years and beyond, for 
the Transportation Command? Because I know one of the things I 
am very concerned about is our C-17 fleet.
    General McNabb. Well, Congressman, thanks for that. I 
couldn't agree more with the value of the strategic mobility 
capability. And I would say that we are being pushed, 
especially as you think about global operations and we think 
about how we are headed as a department.
    I will tell you first and foremost, that new tanker was my 
number-one acquisition priority. And the fact that the tanker 
allows us to put global-on-global mobility reach in power is 
what that is all about. And that new tanker will allow us to 
make sure that we can extend out and we can really change the 
way we do our concept of operations and be much more efficient 
in that. So that is huge. And the faster we can get the tanker 
on board, the better, from my standpoint.
    Right now, we do some things by brute force. For instance, 
do trans-load using C-17s, moving pallets and people, and that 
is not what C-17s do best. They do air assault or airdrop. And 
that has been--that has grown a lot as we have gotten into 
Afghanistan. We have gone from 2 million pounds of airdrop in 
2005 to 60 million pounds last year, and we are headed toward 
100 million pounds of airdrop. And what that allows us to do is 
to get out there to the forward operating bases and make sure 
they get what they need without having to put convoys at 
unnecessary risk.
    I think that we are pushing very hard to be able to have 
some of these intermodal/multimodal locations, places like 
Rota, places like Souda, places like--or Souda Bay, places like 
Camp Lemonier in Djibouti. As I look to the Pacific, the same 
thing--Guam, Singapore, Diego Garcia. And if I have those 
places where I can get large stuff into and then have theater 
response, whether that is the joint high-speed vessel, whether 
that is C-17s or 130s [Lockheed C-130 Hercules military 
transport aircraft] doing airdrop, or whether that is even as 
we look at hybrid airships, if we can get to the point where we 
can get that stuff to these major ports by surface and then 
have options for the theater commanders out there depending on 
the nature, we really will have gone a long way.
    That is the part that I am looking at now, because that is 
big dollar savings and it is also very, very fast. That 
includes not only our float prepositioning but what do we 
preposition on the land. So you can imagine giving those 
options to the theater commanders out there, and I think that 
will be very useful to them.
    So those are the things that I am looking at and really 
asking all the theater commanders, is, where do you want me to 
look at those intermodal locations, and let's work those now. 
The investments in places like Diego Garcia, like in Rota, like 
in Souda Bay, have already paid big dividends for us. And we 
are finding that the power of that has actually increased the 
velocity into the warfighter, because, oftentimes, in those 
small places, it is not the number of airplanes, it is what we 
can get in the throughput into those small bases. And that is 
where the C-17, as you mentioned, has really, really played 
well.
    I get to fly the C-17, and I will tell you, it is an 
awesome airplane. When I go fly with those young guys at Altus 
and those young instructors--and, you know, I have 5,600 
hours--they will come over and put their arm around me and say, 
``Come over here, son. Let me show you how we fly this 
airplane.'' And so they really have taken this and taken it to 
a whole different level.
    So, lots of great opportunities. The C-5M is performing 
very well; that is the re-engined C-5s. And as we get the C-
130Js on board and the C-130 Avionics Modernization Program on 
the C-130H models, you know, you have really set us up with 
modern airplanes that we can really throw in there very quickly 
and really can make a difference.
    Mr. West. Well, thank you, sir.
    And if I could ask one other question.
    General Ham, you know, as we sit back, as Ranking Member 
Smith talked about the unrest and the political instability in 
Africa, do you see an encroachment of any Al Qaeda type of 
elements? And, also, I would like to get your assessment of 
China's interventions into the African continent, as well.
    General Ham. Thanks, Congressman.
    If I could take the second piece first, the Chinese are 
very active across the continent, but primarily in an economic 
way. And I am learning more about that as I get further into 
the command. And I would note that tomorrow would be 4 weeks, 
so I have a lot yet to learn about this. But I see the Chinese 
influence primarily in an economic vein, with construction, 
with oil, and the like.
    Your first point about Al Qaeda and, more broadly, violent 
extremist organizations in Africa is, indeed, the number one 
security challenge that we face in Africa, and I would say most 
notably in East Africa, where we see the efforts of al-Shabaab 
in Somalia attempting to expand their reach more regionally, 
with linkages with Al Qaeda in the Arabian Peninsula and Yemen 
and, potentially, linkages with Al Qaeda in the Lands of the 
Islamic Maghreb.
    All of those, I think, pose a very, very real strategic 
concern to the United States, our people, and our interests, 
both abroad and at home. So I take that as our number one 
mission and our number one area of emphasis.
    Mr. West. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you both for your distinguished service.
    I wanted to follow up a little on the interagency question, 
because I think, over the years, we have acknowledged that the 
military operations and interface probably will always 
overshadow, to a certain extent, in many of the areas in which 
we are engaged, we are involved.
    Are there some metrics, are there some areas that you are 
really looking at to see whether, in fact, that has changed 
dramatically, and what has really contributed to that change? 
Are we, in fact, seeing that military operations or the 
activities per se are really not getting in the way of some of 
the diplomatic efforts that we have had ongoing?
    General Ham. Yes, ma'am, I think for us in Africa Command, 
the operations in Libya were certainly a different nature, a 
different type of the operation, in that those were certainly 
an overwhelmingly military aspect of the U.S. application of 
power. More commonly throughout Africa, U.S. Africa Command is 
operating in a supporting role, in most cases supporting chief-
of-mission initiatives or Department of State-led initiatives. 
It is principally through Department of State authorities that 
building partner capacity--security institution building is 
done through State authorities; though DOD [the Department of 
Defense], through U.S. Africa Command, has a supporting role in 
that regard. A good example is the development of forces from 
Uganda, Burundi, who operate in the African mission in Somalia 
under a State Department program that U.S. Africa Command 
supports.
    So I think we have the balance about right, in terms of who 
is in charge. The Department of Defense, and, again, through 
U.S. Africa Command, we bring a lot of capacity and a lot of 
ability to enable those programs, but, by and large, we are 
doing so in support of others. And that seems to me to be about 
right for most of the programs in Africa.
    Mrs. Davis. Uh-huh. Are you checking in, I guess, fairly 
frequently to be sure that everybody agrees, I think, that that 
balance, where it is appropriate--obviously, there are areas 
that you pointed out, of course, where the balance is not 
appropriate. But I think one of the--I think it was the trips 
that I took, actually, with our ranking chairman, where, 
despite the fact that we talked about how important it was, in 
fact, the people who were engaged in this effort didn't feel 
that they had the same seat at the table.
    General McNabb. I think that is a very real concern, and it 
is something that I would tell you that I will take a look at, 
as I get my feet under me in this new command.
    I will, as I have told Assistant Secretary Carson of the 
Africa Bureau of State Department, that most of the time when I 
come back to D.C., I will make an effort to see him, as he has 
pledged to come see me on the continent or in Germany. I think 
it is very, very important that we have that very strong 
linkage to make sure that all of the assets of the Government 
get a voice, and an important voice, as we move forward.
    Mrs. Davis. Thank you, sir.
    May I just--you noted, I think, two areas in which you are 
reaching out to military families, particularly in Stuttgart, I 
think, where they have had some questions and some problems. 
How else are you able to make certain that our military 
families feel that they have the support that they need in that 
command?
    And some of those are accompanied, I believe. And the 
majority, I suspect, are probably not accompanied, certainly in 
Djibouti, where we have some forces there.
    General Ham. Yes, ma'am, the quality of life for our 
service members who are at the headquarters in Stuttgart and in 
our service component commands who are largely based in Europe, 
with one here in the U.S., those families have excellent 
support.
    I do worry more so about the small contingents that are 
either in our embassies, kind of separated away, that the 
military service members and families have the programs that 
they need. But, generally, that is pretty good.
    And at places like Camp Lemonier, which is a pretty large 
deployment of unaccompanied service members, again, thanks to 
this committee, they actually have a very good quality of life. 
It is never as good as being separated, but it is quite good.
    Mrs. Davis. Thank you.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Generals, thank you for being here today.
    And, General Ham, I am very familiar that the Southern 
Command is located in Miami. And we know that the people of my 
birthplace, Charleston, South Carolina, have a keen interest in 
the potential of AFRICOM being located in Charleston. And we 
would, if my colleagues, Congressman Tim Scott, Congressman Jim 
Clyburn, were here, they would want to make a few points to 
you.
    And that is that Charleston is the transportation hub for 
the United States Transportation Command, as well as the 
primary seaport for container traffic between the United States 
and the South Atlantic. The Charleston Air Force Base provides 
all the strategic airlift support for Africa for our 
Government, to include embassy support. SPAWAR-Charleston 
[Space and Naval Warfare Systems Command--Charleston] is the 
leading provider for command, control, and communications for 
EUCOM's [United States European Command's] role in Africa.
    The relationships for the Charleston medical community, 
which would be so helpful in the event of an emergency in 
Africa; the Medical University of South Carolina is located in 
Charleston, a world-class facility. We know that most of the 
rapid deployment forces that would be used in an African 
operation include special operations that are in the 
southeastern part of the United States. Charleston is the hub 
for all military transportation, airlift, sealift, and 
prepositioning to Africa.
    And then there is an extraordinary cultural linkage. I had 
the privilege of visiting in Monrovia, Liberia, and the great 
cultural association of West Africa to Charleston is very 
clear. It is a shared culture. In fact, we have the same 
accents, and I felt right at home when I was visiting with the 
people in Monrovia. And then I found out, to my pleasant 
surprise, that the diocese of the African American Methodist 
Church for South Carolina is actually South Carolina and 
Liberia, and it sponsors the AME [African Methodist Episcopal] 
university there in Monrovia.
    And so, with that in mind, the decision, Secretary Gates 
has indicated, to be made for moving Africa Command or 
retaining it won't be considered until next year. But when the 
decision is made, what are the considerations that will be made 
as to quality of life or dependents' access to schools, jobs, 
medical care? What do you see?
    General Ham. Well, Congressman, first, I would say I have 
only had the opportunity to visit Charleston once, but it was 
just a few years ago, and it was indeed a very enjoyable visit 
to a great city.
    As you mentioned, the Secretary of Defense has asked me to 
take a look at and provide a recommendation back to him as to 
where the stationing of the Africa Command headquarters should 
be. And he has essentially asked me to start from a clean sheet 
of paper and look at the factors that you have identified: 
Security, suitability, quality of life, the transportation 
nodes, accessibility to the area of responsibility, a whole 
host of requirements that we would like to station our 
headquarters.
    And so that process has begun, and we will look at, first 
of all, to make sure we have the methodology right, and then we 
will look at a wide variety of locations to see which we think 
would make the--be most suitable for the command to accomplish 
its missions.
    But it will take us a little bit of time to do that study.
    Mr. Wilson. Well, you indicated you have visited Charleston 
once. You are welcome back, obviously. And you will see such a 
symbiotic relationship with West Africa to the low country of 
South Carolina. And the people there are very proud of the 
shared culture, but then, obviously, all the other features 
that I told you. And I know that if Congressman Scott were 
here, or Congressman Clyburn, they would want to make that 
point.
    And, General McNabb, as my final question, with regard to 
refitting railcars, what is the status of refitting old 
railcars as opposed to buying new?
    General McNabb. Yes, sir, our Surface Deployment and 
Distribution Command has been looking at that and have 
basically decided that refurbishing old probably makes the most 
sense from a business case.
    Right now, we have been asked by OSD [Office of the 
Secretary of Defense] to take a look and say, okay, given 
everything going on, what should that number be, 4,000, 5,000, 
you know, where should that be in there? And, right now, they 
are doing that study with OSD.
    Mr. Wilson. And to conclude, there is a bit of history 
there, too. Where retrofitting occurs in South Carolina is in 
the community of Hamburg, South Carolina. It was the site of 
the first scheduled railroad in the world, between Charleston 
and Hamburg in 1832.
    Thank you.
    The Chairman. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    And to Mr. Wilson, I would comment that when I have been to 
South Carolina, Charleston, I have enjoyed myself in that area.
    But I would also point everyone out--or point everyone to 
the fact that I live in the Atlanta, Georgia, area, which is 
the transportation hub of the Southeast. We have the world's 
busiest airport; it is high-capacity. We have approximately--
quite a few military aviation facilities. We have one of the 
country's largest diaspora communities from Africa; superb 
infrastructure to support the military's communication needs; 
world-class educational institutions--Georgia Tech, Emory, the 
Atlanta University Center. High quality of life for personnel 
who were assigned--or who would be assigned to that area.
    And I think that it would be a great thing. I know that 
Ambassador Andrew Young is very much interested in AFRICOM 
choosing to locate its headquarters in Atlanta, and I certainly 
join in that desire. If not Atlanta, then someplace in Georgia 
would be great.
    But I want to also congratulate you, General Ham, for your 
new assignment. Four weeks in, I know that you are still trying 
to get adjusted. And it seems like you came in at a time of 
great action going on in Africa, with the Libyan situation, we 
have the situation in the Ivory Coast.
    Now, I understand that President Gbagbo has resigned and is 
asking for U.N. assistance, or U.N. protection actually. And 
that is good, that he will be moving on.
    I would like to ask you, are U.S. personnel or equipment 
taking part in the U.N. operations in the Ivory Coast?
    General Ham. Congressman, we are not. We are in very close 
dialogue with the U.S. Embassy and also with the French, who 
have a large presence in Cote d'Ivoire. As we typically do in 
the U.S. military, we plan for possible contingencies. And as 
the chairman mentioned, you know, the security situation in 
Cote d'Ivoire had been deteriorating for some period of time, 
so we looked at a whole range of possible military actions that 
might be necessary.
    But we have--the people at the Embassy are present. The 
Ambassador has asked for a small coordinating team just to 
maintain communications, and we have got that available to him, 
as well.
    Your information is probably a little more current than 
mine, but, as I was departing the Pentagon to come over here, 
we were at the situation where Mr. Gbagbo had indicated his 
apparent willingness to turn himself over, but that had not yet 
been accomplished by the time I left. But, hopefully, that will 
be accomplished and a calm returned to Abidjan and to the 
country. It is sorely needed.
    Mr. Johnson. Thank you, sir.
    And would you also update us on the progress toward 
increasing the professionalism and accountability of the forces 
in the Democratic Republic of Congo?
    General Ham. Yes, sir. It is an ongoing effort. We have 
trained one battalion. We think that one battalion will perform 
pretty well. But we think there is more that we can and should 
be doing to help Congo become a more professional military 
force, subordinate to civil control and responding under 
international norms.
    But initial indications are pretty good, I think, but there 
is still, certainly, some work to be done.
    Mr. Johnson. Thank you.
    General McNabb, I had questions, but Congressman Wilson 
kind of threw me off track there, so I will get back to you at 
some point in the future.
    Thank you, gentlemen, for your service to the Nation.
    Mr. Forbes. [Presiding.] Thank you.
    The chair recognizes Mr. Kline for 5 minutes.
    Mr. Kline. Thank you, Mr. Chairman.
    And with all apologies to my colleagues from South Carolina 
and Georgia, most everybody knows that Minneapolis-St. Paul is 
roughly the transportation center of the entire world.
    General McNabb, I have a copy of the letter that you sent 
to Mr. Babbitt, the FAA [Federal Aviation Administration] 
administrator, where you were expressing some concerns about a 
proposed rule that will affect crew rest for our commercial 
partners.
    Could you briefly outline what your concerns are and what 
impact this rule might have on our ability to move troops and 
personnel?
    General McNabb. Sure. Yes, Congressman, actually, Mr. 
Babbitt did come out--Administrator Babbitt did come out and 
visit with me at TRANSCOM, also visited with the Air Mobility 
Command. And we chatted about what this impact would have on 
our Civil Reserve Air Fleet, especially the nonscheduled 
carriers--so, the legacy carriers, kind of a separate issue--
but the nonscheduled carriers that primarily do the charter 
work not only for us but for others.
    As I mentioned to him, I said, safety is paramount. There 
is no question that that----
    Mr. Kline. Yes, sir, but what would the impact be? What is 
your concern here?
    General McNabb. Sir, the biggest concern has to do with, as 
you get modern airplanes, when you think about--basically, one 
size doesn't fit all. When you talk about regional carriers, 
they are doing a number of landings, versus long international 
legs, they have different levels of fatigue, and they require 
different approaches.
    When you talk about the nonsecurity carriers, they are 
taking stuff directly from the United States and, ideally, with 
modern airplanes, going all the way to Afghanistan, not 
stopping on the way; it is taking advantage of that.
    Ideally, I have been pushing hard for the modern airplanes 
that have the longer range. That increases velocity. It also 
means we don't have to worry about stopping in some of those 
locations. It allows this thing to go very rapidly.
    So I asked them to, you know, take a look at that, take a 
look at better crew rest facilities, better operational risk-
management-type things that say, let's look at this kind of 
unique part of this mission, and make sure that we enhance 
safety but look at all the ways that we can do that.
    Mr. Kline. So if I may interrupt again just for a minute, 
this proposed rule would take away that flexibility. And what I 
am trying to get at, the impact would be, we would move fewer 
troops, it would take more time, we could move less equipment. 
What would the impact of this rule be?
    General McNabb. Well, certainly, it is time, and, 
certainly, it is dollars. And what I am probably the most--what 
I want to make sure is our U.S.-flag fleet stays competitive. 
And if we don't take full advantage of modern airplanes, 
especially on the international market, we will find ourselves 
not in that market. And I am very worried about that, because I 
depend on those.
    Mr. Kline. I am, too, General. Thank you very much. If 
there is anything this committee can do, I trust you will 
communicate that to us.
    General Ham, I want to go back to the command structure for 
Operation Unified Protector. And I have a little thing here 
from Admiral Stavridis, I think, NATO, sort of a command 
structure outline. And it says that we have, apparently, 
Lieutenant General Jodice, American; Vice Admiral Rinaldo 
Veri--in fact, I should put my glasses on, I am sorry--an 
Italian; and we have a Canadian lieutenant general, and they 
are reporting to Admiral Stavridis, Supreme Allied Commander 
Europe.
    You should have lobbied for a title like that.
    The question is, do you see your relationship as the 
commander of AFRICOM as the same as General Mattis' is to 
General Petraeus and Admiral Stavridis? We are trying to fit--
the chairman asked you about that relationship, and you said 
that there might be a uniquely American operation where, 
presumably, you insert yourself into this chain of command and 
take U.S. forces and use them for, in your example, it was a 
pickup of a downed pilot or something else.
    I am just--help me understand what your relationship is to 
this--I know you don't have this--but to this command structure 
that I just described, which is a NATO command structure.
    General Ham. Sir, it is quite analogous to what you 
described in Afghanistan, where in Afghanistan Admiral 
Stavridis, in his NATO role, overseeing General Petraeus, a 
NATO commander, supported by General Mattis, a United States 
geographic combatant commander. And so that relationship is 
very similar to what we have here.
    I do not have a day-to-day operational role, but Libya is 
in the area of responsibility of U.S. Africa Command, so we 
have, obviously, an enduring interest. And when Operation 
Unified Protector is complete, when the alliance decides that 
its missions have been accomplished, then Libya is still in 
Africa Command's area of responsibility. So I remain very 
closely connected with Admiral Stavridis, Admiral Locklear, 
and, indeed, the Canadian, General Bouchard, who is a very 
competent commander.
    Mr. Kline. Okay. Thanks very much.
    I yield back.
    Mr. Forbes. Thank you.
    The chair recognizes the gentlelady from Florida, Mrs. 
Castor, for 5 minutes.
    Mrs. Castor. Thank you, Mr. Chairman.
    Welcome, Generals.
    General McNabb, I think many of the personnel in U.S. 
Transportation Command are something of unsung heroes. I mean, 
they do it all, from the intricate and complex delivery of 
supplies across the globe, to air refueling, to deployment and 
redeployments, and then you have the disaster response and all 
of the aeromedical assignments that you have. I don't think you 
get enough kudos, so my hat is off to all of the personnel in 
U.S. Transportation Command.
    General McNabb. Thank you, ma'am.
    Mrs. Castor. I know that one of the primary issues for 
TRANSCOM has been the ongoing saga of the KC-X air refueling 
tanker. And we have finally reached a point now where we can 
all move ahead and they can focus on actually engineering and 
building those aircraft.
    How do you keep the KC-X on time and on budget?
    General McNabb. Yes, ma'am. Well, first of all, obviously, 
the Air Force will--you know, I depend on the Air Force, in 
their organize, train, and equip role, to be able to be 
overseeing that and making sure that it stays on time and on 
budget.
    Mrs. Castor. But can you bring some added attention to 
General Schwartz and the Air Force? And I want to hear whether 
or not you have the ability to do that.
    General McNabb. Yes, ma'am. And I think that, you know, 
right now, they have made that--that was their number-one 
acquisition priority, just like it was mine.
    I really do appreciate the tremendous support on both sides 
of the Hill on getting us that new tanker. And I am absolutely 
excited about what it will bring.
    I think that the fact that it is, you know, primarily off 
the shelf, in general, taking advantage of what is already 
commercial market, making sure that we are not asking for 
things that are beyond the reach in technology--I mean, a lot 
of the things that usually will drive something to increase 
cost or a delay in time, most of that stuff has been worked 
out. So I am pretty excited about that.
    And it seems to me, as long as we keep a stable program, 
that we will be able to deliver that on time. And, you know, 
hopefully, we will be cranking those out at 15-plus a year, and 
then we can begin to replace those old 135s [Boeing C-135 
Stratolifter military transport aircraft] that have done such a 
great job.
    Mrs. Castor. Yeah, the mechanics that have worked on--that 
continue to work on some of the Eisenhower-era tankers are 
magicians, I think, sometimes.
    What role has TRANSCOM played in support of the 
humanitarian relief to the earthquake victims in Japan? Could 
you give us a quick summary on that and whether or not it has 
placed stress on our mobility system?
    General McNabb. Yes, ma'am. We have had 512 sorties, moved 
about 306 packs into there to help. Primarily, those were those 
radiological teams and other teams that went in. Moved----
    Mrs. Castor. Are these teams and assets, are they in that 
area? Could you distinguish, how far are you having to travel? 
Do you have the ability to respond with assets that are close-
in?
    General McNabb. Well, certainly, Admiral Willard is using 
his own forces that are already in-theater. And you have seen 
them. You have seen the amphibious groups. You have seen the 
Marines come up from Kadena. You have seen the Seventh Fleet, 
the naval assets come in. Obviously, we have a number of airmen 
that are over there at different bases, like Yokota and Misawa, 
and he is taking full advantage of all of that.
    Where he has asked us to help is the stuff coming from the 
Continental United States or for emergency movement in-theater 
that they can't handle themselves. We have moved, for instance, 
crash rescue teams, the Fairfax rescue team from here, the L.A. 
crash rescue team. And this is not only to go into the rubble 
but also dog teams that deployed with them. We moved emergency 
generators, a planeload, 65 emergency generators, as the 
generators were taken out by the tsunami, for the nuclear 
plant. We also moved a planeload of boron to neutralize the 
radioisotopes.
    So we have been doing things like that, kind of the 
emergency, ``This is stuff that we need from the States.'' A 
lot of radiological teams, whether they were survey teams or 
chemical, biological, radiological teams, we brought those on.
    And, basically, what Northern Command, Admiral Winnefeld, 
did when this came up, said, ``Here are the teams that they 
might need.'' We leave that to Admiral Willard. I make sure 
that I have airplanes that are on standby alert and air 
refueling assets to take it as soon as it is identified. And, 
once it is identified, we go pick them up and take them.
    We also did the--aided in the voluntary departure of all of 
the U.S. people----
    Mrs. Castor. Has it provided any kinks in your ability to 
complete missions anywhere else?
    General McNabb. Ma'am, the only thing that we had a bit of 
discussion on is how quickly they needed to move the voluntary 
departure. We decided that we would do that all commercial. We 
went to our U.S.-flag carriers, like you were mentioning. 
Spring break did have a play, because there wasn't excess 
capacity. And they basically responded very quickly. That 
allowed us to keep the T-tail supporting General Ham in 
AFRICOM, General Petraeus and General Mattis in CENTCOM, at the 
same time of having those T-tails available to take any of that 
emergency nuclear response stuff immediately in there.
    So, again, our commercial partners really stepped up 
magnificently and, by the time it was over, brought out about 
5,000 passengers, over 400 pets. And then we also got 
commercial tickets on the scheduled missions that were coming 
out of Japan to get the folks home. And then we worked with 
NORTHCOM to get them to their final destination.
    Mrs. Castor. Thank you very much.
    General McNabb. You are very welcome, ma'am.
    Mr. Forbes. Thank you.
    The gentleman from Colorado, Mr. Coffman, is recognized for 
5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    First of all, General McNabb, thanks for the job that you 
are doing as the commanding general for U.S. Transportation 
Command.
    A question about Afghanistan, and that is--you mentioned 
that you want to get the C-17 more in its primary mission, as 
you define it, to do the airborne drops for logistical support. 
But I understand that there have been some problems with 
accuracy, getting that inside the drop zone. Could you respond 
to that?
    General McNabb. Sir, I think you are probably talking about 
the Precision Airdrop System, where we drop it at 10,000 or 
15,000 feet, and it has a GPS [Global Positioning System] 
receiver and a square chute, and it comes in. And the biggest 
issue with that was the terrain and the winds. And, obviously, 
it has got to be able to keep up with those kinds of things. So 
we have worked with industry to make sure that we continue to 
drive in the accuracy that they need on the ground.
    Because of the conditions, primarily we have been able to 
do Visual Flight Rule-type drops, low-altitude, low-cost, using 
disposable-type chutes. That has been the primary amount that 
we have done. And normal container delivery system, that is the 
primary way that we have been doing that.
    I actually got to fly an airdrop, 40 bundles, where we 
dropped from a C-17 that we dropped up in the mountains at 
night. They use the night-vision goggles. They have worked out 
very well with the folks on the ground. And when you are coming 
in at 1,000 to 2,000 feet, the accuracy rule is within the 
standards that they need.
    So we have been, you know, the 93 to 94 percent accuracy on 
putting the stuff on target. We are even looking at doing low-
altitude, high-speed airdrop, much like the special operators 
do. The C-17 and the 130J are stressed to be able to do that, 
and that is where you would come in at 250 knots at 300 feet. 
But we have to make sure we design--and we are really looking 
for, you know, an ability to size this and keep the cost down. 
But it obviously has to do with the parachute and the opening 
shock.
    Those are the kind of things that we continue to work to 
say, can we do it as cheap as possible, depending on the 
threat, all the way to putting a precision airdrop that, 
ideally, we would like to recover and reuse.
    Mr. Coffman. Thank you.
    And, General Ham, thanks for your service to our country. 
And congratulations on your recent command for--taking over 
U.S. Africa Command.
    First of all, can you just share with me what the rationale 
was for putting it at Stuttgart, Germany, when Central Command 
was your predecessor? And it deals with an area geographically 
further away than Africa, and yet, they are in Florida.
    General Ham. Yes, sir. Africa had been divided between 
European Command, which had the bulk of Africa; Central 
Command, which had the Horn of Egypt and the Horn of Africa; 
and Pacific Command, which had the island nations and 
Madagascar. So there actually were three geographic combatant 
commands, previously, that divided the continent.
    But the majority was in European Command. And so, when the 
decision was made to stand up Africa Command as a separate 
geographic command, the bulk of the resources were already in 
Stuttgart, the facilities were already in Stuttgart. So, for 
purposes of getting the command off to an expeditious start, 
that seemed to make a lot of sense.
    Mr. Coffman. I understand.
    Now, in the situation in Ivory Coast right now, where you 
have a constitutionally elected government that is not being 
permitted to assume the government and you have a president-
elect there that has not been allowed to assume his position in 
the government, that there has not been a peaceful transfer of 
power, were there any communications between that president-
elect and you and your command in reference to any assistance?
    General Ham. No, sir. Only through the U.S. Embassy. But it 
was specifically focused on U.S. missions, for example, 
planning for a noncombatant evacuation.
    Mr. Coffman. I see. So there was virtually no communication 
whatsoever from that constitutionally elected government that 
was not able to assume power to provide any assistance 
whatsoever?
    General Ham. Sir, not with Africa Command, to the very best 
of my knowledge.
    Mr. Coffman. Well, you know, how would you define your 
mission in Africa? Because if you cannot influence that 
situation in any way, you know, tell me how you define your 
mission.
    General Ham. Sir, in Cote d'Ivoire, there was already a 
very large United Nations presence, and focused on this 
clearly. There were efforts under way, through a variety of 
international and regional organizations, to try to seek a 
solution to this other than through the application of military 
force. My sense is that proceeded. Over the past couple of 
days, as violence escalated, we saw the United Nations take a 
more forceful role. And I think that is what perhaps compelled 
Mr. Gbagbo to decide that it was time to change.
    I think the best role that Africa Command plays in these 
situations is to try to prevent them, to try to work with the 
militaries and security forces of African states so that they 
are loyal to their duly elected and constituted government, 
which is not something we saw play out in this situation, where 
we had forces loyal to both the duly elected president and to 
the man who would not relinquish power.
    So I think we can be more preventive, rather than the 
application of military power, to displace--the application of 
U.S. military power to displace someone in an African state.
    Mr. Forbes. Thank you, General.
    The gentlelady from Hawaii is recognized for 5 minutes.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Thank you, Generals, for being here.
    General McNabb, I was wondering, because of others who have 
testified before us, there always seems to be this interesting 
relationship between the National Guard and Reserves as making 
up your force. Do you also have that combination?
    General McNabb. Yes, ma'am.
    Ms. Hanabusa. And do you know what your numbers are, in 
terms of how many are Active and how many of the Reserves or 
National Guard supplement you?
    General McNabb. It is about 60 percent in the Guard and 
Reserve and about 40 percent in the Active would be a, you 
know, rough, depending on what weapons system and--of course, 
you have a great team out there in Hawaii.
    General Wong and his team have been superb in figuring out 
new ways that we can take full advantage of the total force, 
sharing airplanes and figuring out the best way to use the 
Guard and Active Duty. That has really been very positive.
    Ms. Hanabusa. Thank you. Thank you for saying that.
    I am really curious about whether you have had any problems 
with, I think it is Article 10--or, I mean Title 10 and Title 
32. Because, as you know, the Guard really is a State function, 
reports and appointed by the adjutant general, as appointed by 
the Governor. And how do you work out the chain of command, I 
guess, for lack of a better description?
    General McNabb. Certainly, when they are flying a Federal 
mission, obviously they get paid for that. And when they do 
that, they come on to our orders, and then they use our normal 
chain of command.
    They do some Guard missions in which they stay under the 
Governors' command and control. I would say that, for 
especially on the mobility side, I am very, very happy with how 
that all works. But it is fairly simple, given the fact that we 
give them a mission, they fly it, and they get paid for that. 
It works out well overall, and it is a little easier for us, 
especially on the airlift side.
    Tanker, the same way. For the most part, any time that we 
have had a national emergency, I have never once had a governor 
say, well, I am holding the tankers back, or the 130s, or the 
C-17s--not once. They always know that this is part of this.
    Where we really get into--you really see the value is for a 
domestic disaster like Katrina. And, at that point, you know, 
how do we make sure that we are using not only the Guard bureau 
but our support to NORTHCOM, and making sure that that all 
comes together. And I would say that that has gone very well. 
We saw that in Haiti, really some very, very good work in 
making sure that General McKinley, as the National Guard Bureau 
chief, and us working through that. It really has not been a 
problem.
    Ms. Hanabusa. You testified earlier about Japan and the 
amount of support that you have had to coordinate. Does any of 
that support correlate to the respective Guard units and/or 
Reserve units?
    General McNabb. We definitely had some of the people flying 
the missions. But they are flying there, they are flying back, 
and it is a specific mission in which they are doing that.
    The rest of them, I am not sure how much of the Guard would 
be on those chemical, biological, and radiological teams that 
NORTHCOM, you know, has that we move. I would have to get that 
for the record for you.
    [The information referred to can be found in the Appendix 
on page 103.]
    Ms. Hanabusa. Have you also had occasion to call into 
service, like, commercial planes or commercial ships or 
anything like that? And what is the process that you would go 
through to do that?
    General McNabb. Yes, ma'am. In fact, we have a very robust 
process. And, in fact, if we can go first to our commercial 
industry, our U.S.-flag fleet, that is what I will do, if that 
can handle it, because they can do it cheaper than we can do 
for the military side.
    So I try to focus the military on places where the threat 
or the conditions require military-type lift. And if commercial 
can do it, I will turn to them first. They have really helped 
us tremendously on the surge into Afghanistan, bringing the 
equipment out of Iraq. All of that has been done commercial, 
which is good for----
    Ms. Hanabusa. How are they cheaper? I am curious.
    General McNabb. Pardon me?
    Ms. Hanabusa. How are they cheaper?
    General McNabb. Well, if you look at fully burdened cost 
and you say, okay, here is how much it costs me to take a 
pallet of stuff on a C-17 versus a 747-400 freighter, you know, 
you look at the efficiencies that they have in the commercial 
world, it ends up being, you know, a cheaper way to do that. 
That frees the C-17 to go do airdrop.
    So when I sit there and I think about that, that has been 
one of the real powers that I have seen in TRANSCOM, is the use 
of both the air and the maritime industry wherever possible. 
And what has allowed us to handle a lot of these surges that 
you all have asked about, is the fact that we have brought the 
U.S.-flag fleet to bear. We basically contract with them.
    Ms. Hanabusa. And it is U.S.-flagged.
    General McNabb. Yes, ma'am.
    Ms. Hanabusa. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Forbes. Thank you.
    The gentleman from Georgia, Mr. Scott, is recognized for 5 
minutes.
    Mr. Scott. Thank you.
    General McNabb, General Ham, I represent Robbins Air Force 
Base. And just to the south of me, I have Moody, and just to 
the West, I have Fort Benning; just to the east, I have 
Stewart. Both of your--the Air Force and the Army are extremely 
important to us. And as you look for additional commands, I 
think Georgia will be--you will find open and welcome arms 
there.
    I want to ask a question. The joint future theater lifter, 
is that going to be a vertical lift craft?
    General McNabb. Congressman, we are looking at all parts. 
Vertical lift is one of them. One is fixed-wing, which Air 
Mobility Command had brought in kind of a, you know, a much 
more modern C-17, -130-type aircraft.
    We also are looking at airships under that, to say, you 
know, how does that fit in to the overall enterprise that we 
have. And what we are trying do is sort that out. And I will 
say, we are going to look at, you know, what does it cost per 
pound delivered, and then how does that fit in to the rest of 
the fleets that we have. And I will use surface, I will use 
rail, we will use trucks, I will look at airships, you know, 
and we will just see how that will fit in to the rest of those.
    Vertical lift is one of those ways. Vertical lift, in the 
past, has been probably the most expensive way. So when we 
think about ways that we can help General Petraeus and General 
Mattis, one of the things is, if I can free up his vertical 
lift assets to go do the operational-type missions that only 
they can do, by doing whether it is airdrop or air land, that 
is what I try to do. Because, historically, that is just a much 
more expensive way.
    When I look for the future, that may change, those 
dynamics, as technology takes over. And I think that is what we 
are looking for.
    Mr. Scott. Okay.
    Just looking at the history of things, it never made sense 
to me why we canceled the F-22 [Lockheed Martin/Boeing Raptor 
fifth-generation fighter aircraft] before the F-35 [Lockheed 
Martin Lightning II fifth-generation fighter aircraft] is 
ready. And the tanker, it takes us a decade to get through 
that. And now we have the C-17 and stopping the purchase of the 
C-17.
    And, of all the decisions that I have seen--and, again, I 
don't pretend to think that I know as much as you do, General. 
But, of all the decisions I have seen made, the one that I 
question the most, as far as our abilities going forward, is 
cancelling the C-17.
    And it is not manufactured in my district. I mean, it is 
not. But this is my question: If we cancel the C-17 buying 
altogether, knowing the history of the procurements and that it 
may be 20 years before there is an alternative to the C-17 that 
actually works--we have already paid for the technology costs 
of the plane--you know, what alternatives do you see for future 
airlift production if our last remaining wide-body military 
production program shuts its doors and closes?
    And how would we replace those aircraft if we end up in a 
situation where they do come under fire and we do actually 
start to lose some of them?
    General McNabb. Yes, sir. Sir, I will tell you the C-17 has 
performed magnificently, and it really has changed the way we 
did airlift. Because it can swing between strategic and theater 
roles, and, as you mentioned, it has been tremendous.
    Right now, we are set to have 222 C-17s. I would say that, 
when we did the MCRS [Mobility Capabilities and Requirements 
Study], we figured we need about 300--it was 304--large 
strategic airlifters. And, right now, that was made up of C-
17s, C-5Ms, which were re-engined, and C-5As that had the 
Avionics Modernization Program on there. And what I basically--
from TRANSCOM's standpoint, we need about 32.7 million ton-
miles. And as the Air Force looks at what is the best mix of 
those airplanes, that is where the C-17/C-5 mix came up.
    From my standpoint, one of the things that I am very 
excited about is, as we get the new tanker--and, right now, I 
use C-17s in ways that I would rather be using the new multi-
role tanker in--and that will free up C-17s to do some of the 
other work. I think that is going to be a positive all by 
itself. And it is one of those things that folks don't realize 
the impact that we have on having to use C-17s to trans-load 
from our Civil Reserve Air Fleet both cargo and packs, because 
I can't take them all the way forward.
    When I think about the future--and, you know, you make a 
very good point. One, I think they are planning to make sure 
that they keep the tooling. I mean, I think that gives you a 
hedge. The other portion I would say is, we look at these new--
as you mentioned, as we look at the new study, what are the 
other things that we need to do, and then, again, how will that 
mix and match?
    When I first was working as a major on the C-17 and talking 
about when we needed it, at that point we were going to buy 210 
C-17s to replace the C-141 [Lockheed Starlifter strategic 
airlifter] fleet. We are at 222 now. I would say, we have the 
numbers. Most of the places that we go now, I would just say 
that we are not impacted by the numbers of airplanes; it is, 
how many airplanes can I get in there? And so that tends to be 
where I look at the C-17 fleet. It is versatile, and it has 
been superb.
    The other portion where I think we are doing better than 
ever is using our Civil Reserve Air Fleet--again, modern 
airplanes--and making sure that we are using those to max 
advantage so, again, we free up the fleet to make sure that 
they do that.
    But I do understand your concern. And, I mean, I would say 
that I have the same concern, to make sure that we have hedged 
those bets and we have options to be able to bring that back if 
we need to.
    Mr. Scott. Well, my concern is that we start finding stress 
fractures and other things, that it takes us longer to repair 
them, and, at the same time, we can't bring new equipment in.
    General McNabb. Yes, sir.
    Mr. Scott. Thank you, sir. Thank both of you.
    Mr. Forbes. The gentlelady from Guam is recognized for 5 
minutes.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And I would also like to welcome General McNabb and General 
Ham. Thank you for your testimonies.
    Well, earlier, you heard my colleagues speak about the 
great attributes of their States. Well, I represent the 
beautiful island of Guam. And if I were to tell you about all 
the advantages of living on a tropical island, it would take 
all day, so we will put it off for another time. But Guam is 
the home of Andersen Air Force Base and Naval Base.
    I have two questions for you, General McNabb. The first is 
for you, in reference to ship repairs in U.S. shipyards. In a 
May 2004 report to Congress, MSC [Military Sealift Command] 
assured Congress that it was firmly committed to conducting the 
maximum amount of repair work practicable in domestic shipyards 
and ensuring that MSC ships are repaired in foreign shipyards 
only when directed by operational necessity and allowed by law.
    How does TRANSCOM ensure that operational necessity exists 
before authorizing repairs in foreign shipyards?
    An annual report to Congress indicates that there are still 
a tremendous amount of ships being repaired in Hong Kong or 
Singapore. So what more can be done to comply with 
congressional intent? Could you answer that for me?
    General McNabb. Yes, ma'am. One of the things that Military 
Sealift Command does, not only do they take care of our surge 
ships, they also take care of the Navy fleet. And the ships 
that they have forward, for instance, in the Pacific, are 
primarily under the Chief of Naval Operations' hats. In other 
words, it is support of the Navy.
    The ships that they take care of for me are the large, 
medium-speed RO/RO [roll-on/roll-off] ships that we would 
activate if we can't, you know, get the commercial lift to be 
able to do that. And right now, we haven't had to be 
activating, you know, these large ships because the commercial 
capability has been there.
    I know that they are committed to using Guam. I know 
Admiral Buzby, the MSC commander, has, I believe, talked with 
you and gone through this with you, and it had to do with the 
drydock, I think, there in Guam.
    Ms. Bordallo. That is correct.
    General McNabb. And so, whatever we can do to get that 
drydock up, because right now that is the constraint, you know, 
as I understand it, the big constraint in '11. We do $40 
million. Guam is probably the place that we do--he does most of 
the work. But not under my--you know, not under my umbrella. It 
is really under the CNO's [Chief of Naval Operations'] 
umbrella.
    Ms. Bordallo. I see. Well, I am very concerned, because we 
have, well, about 350 workers, employees there. It is a private 
shipyard. And, you know, it was one of the things that I fought 
for a few years ago, ``Buy America.''
    General McNabb. Yes, ma'am.
    Ms. Bordallo. So I want to be sure that that is being 
carried out.
    Now, my final question is also for you, General McNabb, and 
it is in regards to rotating aircraft support on Guam. A 
rotating aircraft, which in the past has been called the 
Patriot Express, helps to enhance morale and welfare for 
service members in Guam by offering them flights to, say, Japan 
or Hawaii.
    What steps is TRANSCOM taking with either the Navy or the 
Air Force to bring back this capability to Guam? And can you 
explain to me what is necessary to revisit this issue and 
validate the requirements for this important capability?
    General McNabb. Yes, ma'am. On the Patriot Express, what we 
have done with that--and that primarily was to move the U.S. 
military members around, and their families, when they are 
moving back and forth. It also has the other benefit that, if 
you have it, then there are space-available opportunities for 
dependents and families, which I think is one of the real 
advantages to that.
    We have actually increased the number of Patriot Express 
missions, adding back Korea, adding back Misawa, adding back 
Iwakuni. And the promise that I have had with the commanders in 
those areas is that you have to make sure you fill those 
airplanes, because we have to break even at the end of all of 
this.
    Guam is slated to be--and I will have to get you whether it 
is next year--it may even be--it is probably '12, but it might 
even be '11. But we said, especially as the Marines would come 
down there and we got an additional number of military folks on 
Guam, then it will make sense to have Patriot Express come in 
there, rather than the normal commercial traffic.
    So right now I have told them that is what we want to do as 
soon as we have enough military presence on Guam, and then we 
will get the Patriot Express coming in.
    Ms. Bordallo. So what you are saying, then, is that, by 
2011, possibly, or '12, this capability will be returned.
    General McNabb. Yes, ma'am. And I will get you the exact 
date, because it had to do with the movement of the Marines 
coming down.
    Ms. Bordallo. Very good.
    Thank you very much, Mr. Chairman. I yield back.
    Mr. Forbes. The gentleman from Texas, Mr. Conaway, is 
recognized for 5 minutes.
    Mr. Conaway. Thank you, Mr. Chairman.
    I am sitting here listening to some of my colleagues, and I 
feel like I have gone through a time warp, back when earmarks 
were okay, the monster earmark requests going on for General 
Ham to move his command. So I will refrain from doing that.
    General McNabb, the requirement under the QDR [Quadrennial 
Defense Review] for some 330-plus planes includes 111 C-5s, of 
some configuration. The list I have is 36 C-5As that either 
have or will go through the AMP [Avionics Modernization 
Program] program and 52 Bs and Cs that have gone through both 
engines and the AMP program.
    Where are the other 23--or what are the other 23?
    General McNabb. Sir, right now, we are asking for--the 
MCRS-2016 [Mobility Capabilities and Requirements Study 2016] 
said we needed 32.7 million ton-miles, which equates to about 
301 total big airplanes. That is 222 C-17s, 52 C-5Ms, and 27 C-
5As.
    Mr. Conaway. Okay. So you would be supportive of--I 
suspect, of that 23 that are missing off that list, they are 
parked someplace and may never get off the ground again. And we 
are maintaining airplanes that, in a commercial venue, you 
would never do, for a variety of reasons.
    General McNabb. Sir, what we were hoping for is the ability 
to, as we bring on the additional C-17s, that we can put them 
at places like McChord and Charleston, take our older C-17s and 
replace some of those old C-5As at some of the different bases. 
That will get them new airplanes, it will extend the service 
life on our C-17s----
    Mr. Conaway. Speaking of the service life, the operational 
tempo that you are currently experiencing, I don't 
necessarily--none of us hope it is over the next 5 or 6 years, 
but----
    General McNabb. Right.
    Mr. Conaway [continuing]. Given that each plane has a set 
useful life of some period of time, what impact does this 
current operational tempo have on that fleet? Will it last 
until 2025, 2030, whenever it is we will decide to replace the 
C-17?
    General McNabb. Yes, sir, we bought the C-17s for 30,000 
hours, and we plan to do 1,000 hours a year. So, basically, 30 
years is what we were trying to get out of that asset.
    I would say that we were overflying that, especially early 
on in OIF [Operation Iraqi Freedom] and OEF [Operation Enduring 
Freedom]. In fact, this committee and the Congress helped us 
with that. We said we need about 7 to 10 airplanes to make up 
that--you know, to get the flying hours back down.
    Mr. Conaway. All right. In your analysis, you have 
addressed that operational tempo issue with respect to the life 
of that fleet.
    General McNabb. But if we keep--you know, we may have to 
address it again if we just keep--you know, we stay at this 
tempo. But, as I mentioned before, we are using a lot of 
commercial----
    Mr. Conaway. Right. I understand that. But, at some point 
in time, if you come back to us and say, ``We need C-17s,'' it 
is going to be a whole lot more expensive, at that point in 
time, depending on what the circumstances are.
    General McNabb. Yes, sir.
    Mr. Conaway. General Ham, congratulations on the new 
command.
    Just a quick inference. When Gates was here last week, he 
said that one of the core missions of NATO that he would 
support would be the search and rescue. And maybe I 
misunderstood you to say that was an ad hoc thing that may 
occur, but it seemed to me that we were going to provide the 
search and rescue for the Libyan work. Did I misunderstand 
that?
    General Ham. No, sir. You understood it correctly. It falls 
under the category of what we call ``unique U.S. military 
capabilities.''
    Mr. Conaway. Okay.
    General Ham. And we thought we were the best suited to do 
that.
    Mr. Conaway. Are those your assets?
    General Ham. For the most part, they are, yes, sir----
    Mr. Conaway. Okay.
    General Ham [continuing]. With our Special Operations 
Command Africa.
    Mr. Conaway. All right.
    Your budget request for 2012 is $289 million. How much out 
of hide is this Libyan operation going to cost you, assuming it 
goes past September or October 1st?
    General Ham. Congressman, financially, it won't affect the 
headquarters very much. But where the cost is borne is with our 
service components, in this case particularly the Air Force and 
Navy service component commands for AFRICOM, who have sortied 
ships, aircraft, and personnel at a rate higher than they were 
anticipating to do.
    Mr. Conaway. Okay. So they will have to figure out some way 
to pay for that. That is not necessarily your responsibility.
    General Ham. That is correct, sir. That burden will, 
through the service component commands, fall back to the 
Services.
    Mr. Conaway. Okay.
    One of the advantages that we were told about AFRICOM was 
that you would, in effect, create long-term relationships 
between the mil-to-mil kind of things that would go on in these 
developing countries.
    Given it is a relatively young command still, at this point 
in time, are you experiencing the kind of opportunity or 
availability to send the folks back to the same countries on 
enough of a basis so that we are building relationships there 
that can be used in a crisis if we need them?
    General Ham. I am just learning about this, but in my first 
two trips to the continent, which were, admittedly, far too 
short, but to Djibouti and to Kenya, I, in fact, found exactly 
that circumstance, where U.S. service personnel had been back 
for repetitive assignments. And in those two cases, the 
Djiboutians and the Kenyans were very welcoming of that, 
because it is people they know and understand.
    I think there is probably more that we can do in the 
future, and I will look to do just that.
    Mr. Conaway. Thank you, Mr. Chairman. I yield back.
    Thanks, gentlemen.
    Mr. Forbes. Thank you, Generals.
    We are down now--it is two to two, and you have a much 
deeper bench than we do. So I am going to be very quick on just 
a couple of follow-up questions.
    General McNabb, if I could follow up on a question that Mr. 
Kline asked. If the FAA goes forward with the rule on crew rest 
requirements, will it affect TRANSCOM's ability to execute the 
mission?
    General McNabb. Sir, as Mr. Babbitt went through it, he 
said that he would consider what I was worried about, which is 
that one size doesn't fit all, and our nonscheduled carriers 
are a bit unique, and to make sure that we have built in the 
proper safety program for them.
    If they do the one-size-fits-all, it will impact us in how 
quickly we can do it, velocity, and it will also drive up the 
cost for our U.S. carriers fairly dramatically, to the point 
where I, again, start worrying about the competitiveness they 
will have in making sure that they can take advantage of modern 
airplanes.
    That is probably my biggest concern. And I do think, 
between ORM [Operational Risk Management] and crew rest 
facilities and making sure that we look at what their mission 
is like, it is a little different than the legacy carriers. And 
I just hope that they will consider that there is a difference 
there.
    Mr. Forbes. Can I just drill down on that question just a 
little bit more? I am aware of the Air Force Institute of 
Technology study that found that up to 70 percent of the 
missions flown for you by the civilian carriers may be 
impacted, depending on how the rule is implemented. That seems 
substantial to us, given how much you rely on them.
    Can you just put that in context for us so the committee 
has a good feel of where that falls?
    General McNabb. Sure. When we set up our concept of ops and 
how we are going to base airplanes, especially when you talk to 
a far-off place like Afghanistan, and if you have to drive in 
some additional crew rest and changing crews, it drives in some 
perplexity into the system, that becomes a little bit tougher 
to manage.
    Right now, we have that--you know, we have been driving 
very hard to get those modern airplanes. And, like I said, if 
70 percent are affected, it means that they would have to have 
additional stops, they would have to lay in additional crews. 
The circadian rhythm, you know, the issue with making sure that 
if they are--you know, as you are traveling around the world, 
Afghanistan is 12 hours out from here. So if you have--you 
know, when you think about the domestic here in the U.S., they 
don't have to deal with a 12-hour change in circadian rhythm 
every day.
    So what we have to do is make sure that we think through 
all of those parts to the puzzle and make sure that one size 
doesn't necessarily fit all. Fatigue will affect everybody, but 
you need to come up with programs that adjust to that reality.
    I have flown lots of missions and, you know, have 5,600 
hours. I will say that there is a big difference from flying 
four to six sorties in the U.S., very quick stops, dealing with 
air traffic, all of the problems that you have on the ground, 
versus flying a one-hop on the same crew duty day and going all 
the way, for instance, to Incirlik and stopping for the night. 
I would just say the fatigue level is different and it takes 
different approaches, is my recommendation.
    Mr. Forbes. Thank you, General.
    General Ham, just a couple questions for you. Just a few 
weeks ago, I had the privilege of being over at your command. 
And I had just gotten back from visiting several of the 
countries in Africa. And one of the things on every briefing 
that you would find is that there would be a host of arrows 
that would be drawn from all of the different operations that 
are going on, some of them by State Department, some of them by 
DOD.
    And the question that always puzzles me is, who is managing 
all the arrows? Who is the one authority that is making sure 
that we are not overlapping and that those missions are all 
coordinating in the right fashion? Can you shed a little bit of 
light on that for me, as we see that overlap between State and 
DOD and all the various operations that we have going on in 
Africa? Who is ultimately managing that to make sure the 
jointness is done right?
    General Ham. Yes, sir. While there isn't, you know, an 
overarching command that is in fact directing that, this is our 
interagency process at work. And each of us who participates in 
that has a responsibility.
    So me, at Africa Command, certainly Assistant Secretary 
Carson at State, the folks at the Office of the Secretary of 
Defense and USAID and other agencies, what I think we have to 
do is make sure we have a forum through which the most senior 
folks can collaborate and make sure that we have, in fact, 
synchronized our efforts to the highest degree possible.
    My sense is probably a bit the same as yours, at least my 
initial blush at this, is that at least within the military 
side I am not sure that that is quite as tightly wound as it 
perhaps ought to be. And it is something that I would like to 
take a look at, as I begin my tenure.
    Mr. Forbes. And if you do take a look at that, if you would 
give us that information back as you examine it.
    Just two other quick questions. One of the other concerns I 
had was, in talking to the various players over there, one of 
the things we consistently heard from the State Department was, 
``Defense doesn't do anything unless we okay it.'' That gave 
some of us just a little bit of concern as to the role that the 
State Department had and the role that the Department of 
Defense had.
    Can you tell us and explain a little bit about those two 
functions and how they are collaborating?
    General Ham. Yes, sir, certainly. We would all agree that 
it is far better when State and Defense agree on a way ahead in 
a particular--in any particular matter.
    Mr. Forbes. That is given. I----
    General Ham. But sometimes that is just not the case.
    Mr. Forbes. Right.
    General Ham. But we have a mechanism, again, through our 
interagency process, through the national security staff, for 
the various departments to bring forward matters where there 
is, perhaps, some disagreement on the way ahead.
    I am confident that, again, as I am able to get started in 
this command and build the relationships with Secretary Carson 
and with others in the interagency, that those times will be 
few and far between where we will have very strong 
disagreement.
    But where we do, I don't feel any reservation whatsoever 
about saying, ``I am sorry; I just can't get to agreement on 
this. We need to take it into the interagency deliberative 
process to have disagreements adjudicated.'' We know how to do 
that; we do it all the time in our Government. And I am very 
comfortable inside that process.
    Mr. Forbes. Last question: What are the authorities granted 
to the U.S. chiefs of mission regarding combatant command 
activities in the countries to which they are posted? And do 
you believe that these authorities are sufficient?
    General Ham. Sir, in general, they are. I mean, clearly, 
the chief of mission is the senior American representative, the 
representative of the President in those countries. And so our 
efforts are nested with the chief of mission.
    There may be some very unique circumstances where there 
would be a military effort that might require an authority 
other than the chief of mission. Those are probably addressed 
in a--not in an open session.
    Mr. Forbes. Okay.
    Well, I think we have had all of our questions. Thank you 
so much for your service to our country and for your patience 
today and for sharing your experience and expertise with us.
    And this hearing is adjourned.
    [Whereupon, at 4:05 p.m., the committee was adjourned.]
=======================================================================

                            A P P E N D I X

                             April 5, 2011

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 5, 2011

=======================================================================
      
              Statement of Hon. Howard P. ``Buck'' McKeon

                 Chairman, Committee on Armed Services

                               Hearing on

            Fiscal Year 2012 National Defense Authorization

            Budget Requests for U.S. Transportation Command

                        and U.S. Africa Command

                             April 5, 2011

    Good afternoon. The House Armed Services Committee meets 
today to receive testimony from the commanders of the United 
States Transportation Command and the United States Africa 
Command on the posture of their respective commands.
    Although these are two combatant commands that sometimes 
fly beneath the radar, this hearing could not be more relevant 
than it is today. In AFRICOM's area of responsibility (AOR), 
U.S. forces have been conducting active military operations 
against forces loyal to Libyan dictator Muammar Qaddafi in an 
effort to prevent a massacre of the civilian population of 
Libya. Although this humanitarian intervention is motivated by 
a noble impulse, there is a strong possibility of a strategic 
stalemate emerging in Libya. I fear we may find ourselves 
committed to an open-ended obligation through our participation 
in NATO operations--and that poses real opportunity costs, 
given the volatility of other unstable, more strategically 
important countries in the region.
    Beyond Libya, this weekend as many as one thousand 
civilians were massacred in the Ivory Coast as that nation's 
political standoff escalated violently. This brutality could be 
an ominous foreshadowing of future events in the Sudan, as the 
southern portion of that war-torn country becomes an 
independent nation in July. Further east, Somalia continues to 
be a source of instability, hosting both the Al Qaeda-
affiliated al-Shabaab terrorist organization, and the various 
piracy networks that have intensified attacks in the Gulf of 
Aden and beyond over the past several years, recently killing 
four American citizens aboard a private yacht.
    Just as it was virtually impossible to foresee the United 
States becoming militarily involved in Libya at last year's 
posture hearings, this Congress may be called upon to fund a 
number of possible contingency operations or humanitarian 
missions in AFRICOM's AOR.
    Wherever U.S. forces may operate over the next year, 
TRANSCOM will be charged with getting them there, sustaining 
them throughout their operations, and getting them home to 
their families. As General Omar Bradley famously said, 
``Amateurs talk strategy. Professionals talk logistics.'' The 
events of the past 18 months are an instructive example as to 
the relevance of that quote today. Not only did TRANSCOM have 
to respond to the surge of forces in Afghanistan while they 
simultaneously orchestrated the drawdown of forces in Iraq, but 
they also had to respond to the devastating earthquake in 
Haiti.
    Things have not gotten any easier for the men and women of 
TRANSCOM, as they are now supporting combat operations in Libya 
in addition to operations in Iraq and Afghanistan, and are 
working desperately to assist the people of Japan following the 
horrific earthquakes of the past month. What they do is not 
easy and it oftentimes goes unnoticed, but the capabilities of 
TRANSCOM are truly unique among nations.

                      Statement of Hon. Adam Smith

              Ranking Member, Committee on Armed Services

                               Hearing on

            Fiscal Year 2012 National Defense Authorization

            Budget Requests for U.S. Transportation Command

                        and U.S. Africa Command

                             April 5, 2011

    General McNabb, General Ham, welcome. We have two separate 
subjects before us: The posture of U.S. Transportation Command 
and the posture of U.S. Africa Command. Welcome to you both. I 
look forward to your testimony.
    Let me start with TRANSCOM. With the challenges on materiel 
distribution routes inside Pakistan growing because of 
insurgent attacks, border delays, weather, road conditions, 
labor issues, theft and pilferage, what options is TRANSCOM 
considering regarding the Northern Distribution Network? In 
light of increased requirements for transport into Afghanistan, 
I'd also like to hear how TRANSCOM is ensuring a steady flow of 
equipment retrograding out of Iraq and Kuwait at the same time.
    Previously, the Air Force had stated that the minimum 
number of strategic airlift assets required was 316. Recently, 
the Air Force has reassessed that number and has concluded they 
now have an excess to need in regard to strategic airlift. I am 
interested in hearing what TRANSCOM's position is on what the 
appropriate number of strategic airlift assets are and what 
level of risk that assumes.
    Turning to AFRICOM next, events of recent weeks have 
certainly put Africa at the forefront of our minds. The ongoing 
NATO operation in Libya, and before that, the uprisings in 
Tunisia and Egypt (although technically not in AFRICOM's area 
of responsibility) are just the most recent reminders that 
turbulence on the continent can have international 
implications. General Ham, I want to commend you and the 
command on your performance in the Libya operation before you 
passed responsibility over to NATO.
    Looking beyond Libya, AFRICOM's challenge is how to develop 
the military-unique portions of the larger inter-agency process 
that translates broad U.S. national interests on the continent 
into a policy appropriate across a widely diverse geo-political 
landscape, and then execute it with austere resources. It is 
clear that we have an interest in the wellbeing and stability 
of the continent. Global poverty, which affects hundreds of 
millions in Africa, is a major destabilizing force.
    Developing countries are more likely to become mired in 
destabilizing conflicts, or worse, become havens or recruiting 
grounds for terrorists. Violent extremists have footholds 
stretching from the Maghreb to Somalia and points both north 
and south. International crime, including narcotics 
trafficking, human trafficking, trade in illegal weapons, and 
piracy destabilize countries and regions. Unchecked pandemics 
could spread across borders and oceans and threaten entire 
populations and local conflicts can ignite wider conflagrations 
and destabilize entire regions.
    There are any numbers of examples of war, or poverty, or 
human suffering in Africa. The ongoing conflict in Cote 
d'Ivorie and the fragile state of affairs in Eastern Democratic 
Republic of the Congo that is held together by a huge 
peacekeeping operation are but two illustrations. But we do not 
possess unlimited capability or an unlimited mandate.
    Therefore, AFRICOM's approach, to largely work in concert 
with our African partners to identify mutual areas for security 
cooperation, is a proactive way to address national security 
concerns and prevent future conflicts in Africa. With American 
assistance, our African partners can professionalize their 
militaries, become more accountable to the people they protect, 
and strengthen the civilian governance structures that control 
them. In that way, they become more able to deal with the 
security challenges we share.
    Without a robust inter-agency process in Africa, AFRICOM's 
efforts will never reap their true potential return so I hope 
you'll take the time today to discuss how you are building the 
security capacity of our partners within the framework of the 
inter-agency process.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 5, 2011

=======================================================================
      
             RESPONSE TO QUESTION SUBMITTED BY MS. HANABUSA

    General McNabb. Congresswoman Hanabusa, the chemical, biological, 
radiological and nuclear (CBRN) teams deployed to Japan by USNORTHCOM 
were all active duty teams. None of those particular teams were 
comprised of National Guard or Reserve personnel. [See page 24.]
      
=======================================================================

              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 5, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. Following a briefing and demonstration last 
year on nuclear weapon transportation, I became concerned over 
some potential vulnerabilities.
    a. How does TRANSCOM, NNSA and DoD share, synthesize, and 
evaluate potential threat information for transportation 
operations?
    b. What evaluations have been conducted into air 
transportation of nuclear weapons and materials?
    c. What is the process for identifying and examining 
options for incorporating new technologies or equipment in 
improving the safety or security of nuclear weapons and 
materials while in transit? At what interval are these analyses 
conducted?
    General McNabb. USTRANSCOM's primary forum to evaluate 
threats to air transport of nuclear weapons is the Headquarters 
Air Mobility Command (AMC) Threat Working Group (TWG). The TWG 
provides integrated risk assessments in support of Prime 
Nuclear Airlift Force (PNAF) missions and makes mission 
execution recommendations to senior leadership that mitigate 
threat and security vulnerabilities. Membership includes AMC 
Directorates, 18th Air Force, Air Force Office of Special 
Investigation, U.S. Transportation Command, Defense 
Intelligence Agency, Central Intelligence Agency, National 
Security Agency, and National Geospatial-Intelligence Agency. 
It is mandatory for this group to meet for every PNAF mission. 
Additionally, the TWG members work very closely with 
Headquarters Air Force Strategic Deterrence and Nuclear 
Integration Directorate in supporting multiple agencies' 
nuclear forums. Specifically, AMC has supported the 2009 Air 
Transportation Study, conducted in accordance with the Duncan 
Hunter National Defense Authorization Act for FY 09 and 
sponsored by National Nuclear Security Agency (NNSA) and 
Secretary of the Air Force. AMC has also provided assistance to 
the Nuclear Command and Control System Support Staff (NSS) 
during their recent assessment of movement operations, 
including the PNAF. AMC Nuclear Operations Division is an 
active participant with the NNSA in the semi-annual Nuclear 
Transportation Working Group. Additionally, AMC was actively 
engaged in the October 2010 Nuclear Weapons System Steering 
Group's Operational Safety Review of the PNAF program. This 
review is sponsored by the Air Force Safety Center and 
conducted once every five years under the provisions of DoD 
Nuclear Weapon System Safety Program Manual, and Air Force 
Nuclear Weapon System Safety Studies, Operational Safety 
Reviews, and Safety Rules.
    Air Mobility Command maintains a robust inspection program 
through the Inspector General. AMC conducts a Nuclear Surety 
Inspection (NSI) on AMC's sole PNAF-certified unit on an 18-
month inspection cycle in accordance with Chairman of the Joint 
Chiefs of Staff Instructions (CJCSI) Nuclear Weapons Technical 
Inspections. To obtain certification, an Initial Nuclear Surety 
Inspection (INSI) is conducted prior to the unit performing its 
nuclear mission. In addition to the CJCSI 18-month requirement, 
units receive a Limited NSI (LNSI) during the period between 
the 18-month inspection intervals. This results in a unit 
receiving an NSI or LNSI approximately every nine months at the 
very least, half of which are required to be no- or minimal-
notice.
    AMC's 62D Airlift Wing (AW) at Joint Base Lewis-McChord, WA 
is the sole PNAF-certified unit in the Air Force to conduct 
logistical air transport of nuclear weapons and related 
material. Since certification, the 62 AW has successfully 
passed every NSI or LNSI. Additionally, AMC Safety conducts 
Nuclear Surety Staff Assistance Visits on an 18-month cycle as 
required by Air Force Nuclear Surety Staff Assistance Visit 
(NSSAV) Program. This program allows functional experts from 
across the AMC staff to examine the processes in place at the 
62 AW with respect to its nuclear mission. Furthermore, AMC has 
also implemented a Functional Expert Visit (FEV) program for 
the interim period between formal inspections. AMC Nuclear 
Operations Division leads the FEV programs and is able to 
provide subject matter expert review/focus on areas specified 
or requested by the 62 AW. These quarterly FEVs are conducted 
with a small footprint of two-to-four staff personnel and serve 
to continually maintain the highest state of proficiency 
required of this critical nuclear mission.
    Through each of the agencies, assessments, inspections and 
evaluations, options for new technologies are discovered and 
examined. Specifically, the 2009 Air Transportation Study, the 
Nuclear Transportation Working Group, and the Nuclear Weapons 
System Steering Group's Operational Safety Review all examine 
the use of new technologies to improve the efficiency, safety 
and security of nuclear weapons transportation. In addition, 
the Deputy Assistant to the Secretary of Defense for Nuclear 
Matters (DASD/NM) sponsors the Security Policy Verification 
Committee Technology Working Group, which gathers quarterly to 
address technology which would enhance the safety and security 
of weapons transport. Also, the Defense Threat Reduction 
Agency, as directed by DASD/NM, conducts red team exercises to 
address current tactics and policy as well as new technologies.
    Mr. Turner. Have operations in support of Operation Odyssey 
Dawn impacted your ability to support operations in Afghanistan 
and Iraq?
    General McNabb. USTRANSCOM was challenged providing 
concurrent emerging support to Japan relief, Operation ODYSSEY 
DAWN and Presidential support--all while maintaining normal 
passenger and cargo operations to Afghanistan and Iraq.
    Over 95% of all personnel move into and out of theater on 
commercial carriers, and our Civil Reserve Air Fleet (CRAF) 
partners performed without any interruption of support. 
Passenger rotations continued, ensuring that all Relief in 
Place/Transfers of Authority (RIP/TOA) remained on schedule to 
meet US Forces-Afghanistan requirements.
    Specifically addressing cargo support to Afghanistan and 
Iraq, the USTRANSCOM team partnered with USCENTCOM to 
prioritize all cargo and manage warfighter expectations during 
this period of heavy lift. As we synchronized and prioritized 
cargo movements with USCENTCOM to ensure that no RIP/TOA was 
delayed, we experienced some backlog of sustainment cargo as a 
result of concurrent operational requirements. USCENTCOM 
mitigates the risk of sustainment cargo delay by maintaining 
sufficient days of supply in Afghanistan and Iraq.
                                ------                                


                   QUESTION SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. With regard to ship repairs facilities on 
Guam, I understand the dry dock at our shipyard is only 
capable, right now, to do limited repairs. However, even before 
the incident with the dry dock a significant number of pre-
positioned ships were being sent to Singapore or Hong Kong for 
repairs. What more can be done to comply with the law requiring 
ships to be repaired in American shipyards? What is the 
operational necessity for some of the repairs in foreign 
shipyards? The annual report is not clear on this point.
    General McNabb. Overseas shipyard repair of naval vessels, 
including Military Sealift Command (MSC) vessels, is a matter 
under the cognizance of the Department of the Navy.
    Prior to the incident that placed the Guam Shipyard drydock 
out of service earlier this year, MSC had repair work done in 
Singapore on two T-AKE Class (dry cargo and ammunition) 
vessels. These were not prepositioning vessels. The repair work 
was emergency repairs requiring the vessels to be drydocked. At 
the time that these vessels were repaired in Singapore, the 
Guam Shipyard drydock was not certified to lift the T-AKE class 
ships. The drydock has now been refloated, but it has not yet 
been certified to resume repair work. Nearly all shipyard work, 
with the exception of voyage repairs, performed on government-
owned prepositioning ships is done within the Continental 
United States during periodic overhaul periods after their 
cargo is discharged at U.S. military installations.
                                ------                                


                   QUESTION SUBMITTED BY MS. GIFFORDS

    Ms. Giffords. TRANSCOM's mission requires a massive energy 
footprint. To their credit each of the Services pro-actively 
developed strategic processes to make energy informed 
decisions. Recently, as part of the DoD efficiencies the Air 
Force stated it would annually save $750 million dollars due to 
Air Mobility Command's due to reduced energy consumption 
generated via the Air Force Energy Plan. The Navy's ``Green 
Hornet'' Program successfully completed test flights using a 
50/50 bio-fuel blend, is a perfect example of developing 
sustainable alternatives to current energy sources. Finally the 
Marines Corp's 3rd Battalion 5th Marines employment of the 
Experimental Forward Operating Base (ExFOB) in Afghanistan has 
been instrumental in demonstrating the utility of renewable in 
the battlefield.
    1. Does TRANSCOM have a published Operational Energy 
strategy?
    2. What is TRANSCOM's approach to energy efficiency, 
renewable and alternative fuel technologies?
    3. Can you describe the strategic impact of access to a 
scalable bio-fuel on TRANSCOM's global roles and 
responsibilities?
    General McNabb. Our service components, with their 
statutory role of organizing, training, and equipping forces, 
retain the primary responsibility for improving efficiency and 
reducing energy consumption. USTRANSCOM does not have a 
separate Operational Energy strategy document but incorporates 
Operational Energy considerations in our 2011 Strategic Plan.
    One illustration of our encouragement of the service 
components' efforts was our recent investment of $172 million 
into Air Mobility Command's aviation fuel efficiency 
initiatives, which are projected to yield $237 million in 
savings and cost avoidance through the FYDP. Additionally, Air 
Mobility Command has certified a number of mobility aircraft on 
alternative fuels and continues to aggressively explore 
possibilities in this area. USTRANSCOM's 2011 Strategic Plan 
directs that ``wherever possible, the Joint Deployment and 
Distribution Enterprise must recognize and rapidly apply 
technological advances that reduce fuel consumption and enhance 
joint operations.'' Regarding process improvement in this area, 
USTRANSCOM is committed to identify ecologically-aware 
deployment and distribution concepts that improve performance 
while reducing energy consumption and costs. We are currently 
in the concept development phase of identifying ways to 
inventory USTRANSCOM's global supply chain carbon footprint and 
thereby find ways to reduce it in the future. A highly-
successful example is our detailed planning and execution of 
multi-modal contingency operations--efficiently combining 
sealift, ground movement, and airlift of equipment--at Rota, 
Spain and elsewhere. These multi-modal operations not only 
reduce fuel consumption, they are considerably more cost-
effective than reliance upon a single mode of movement (such as 
airlift) alone.
    At this time, no bio-fuels are available in sufficient 
production quantities that would provide a truly viable 
alternative to the fossil fuels currently in use, nor does 
USTRANSCOM own or manage bulk petroleum assets. However, if a 
scalable bio-fuel was developed that met stringent jet and 
maritime fuel use specifications and could be mass-produced, at 
competitive cost, in quantities needed to support sustained 
combat operations as well as worldwide petroleum war reserve 
stockage requirements, USTRANSCOM would use such energy sources 
to accomplish our global mobility mission.

                                  <all>

</pre></body></html>
